<html>
<title> - [H.A.S.C. No. 110-27] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                        [H.A.S.C. No. 110-27]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

   BUDGET REQUEST FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                               __________

                              HEARING HELD

                             MARCH 7, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13





                     U.S. GOVERNMENT PRINTING OFFICE

37-315 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, March 7, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request from the U.S. Pacific Command 
  and U.S. Forces Korea..........................................     1

Appendix:

Wednesday, March 7, 2007.........................................    47
                              ----------                              

                        WEDNESDAY, MARCH 7, 2007
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
          FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Bell, Gen. Burwell B., III, Commander, United Nations Command, 
  Commander, Republic of Korea-United States Combined Forces 
  Command, and Commander, United States Forces Korea, U.S. Air 
  Force..........................................................     5
Fallon, Adm. William J., Commander, U.S. Pacific Command, U.S. 
  Navy...........................................................     3

                                APPENDIX

Prepared Statements:

    Bell, Gen. Burwell B., III...................................    88
    Fallon, Adm. William J.......................................    51

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. McIntyre.................................................   133
    Ms. Tauscher.................................................   133
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
          FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 7, 2007.
    The committee met, pursuant to call, at 8:36 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The Armed Services Committee will come to 
order.
    And we appreciate our witnesses being here so early. As I 
mentioned to each of them before, there is a joint session of 
Congress at 11 o'clock with King Abdullah. And thank our 
members for being with us so early.
    Let me take this opportunity to welcome Admiral Fallon and 
General Bell. It is certainly good to see each of you. And we 
first thank you for your leadership and the role model that you 
are for the troops, for the sailors and for all who are in your 
commands.
    Also, Admiral Fallon, congratulations on your confirmation 
for the new position as commander of the Central Command. And 
it is one of the most difficult jobs in the world, and we wish 
you the very, very best. You have great credentials and the 
ability to do quite well there. We do wish you success.
    However, Admiral, before you leave the Pacific Command, we 
are eager to hear from you and your cohort General Bell about 
your commands and the handling of the broad range of security 
challenges in the Asia-Pacific area.
    It is a very critical region, and yet we have been 
concerned for some time that our involvement in Iraq and the 
Middle East has preoccupied us away from the region's specific 
landscape at a time when we should be engaged on multiple 
fronts and ensuring that our force posture will allow us to 
deter or confront any challenge that might emerge. And 
hopefully that would not be the case, but we must be prepared.
    Our role in the Middle East is vital, but we must have a 
broader focus. There must be a sophisticated and coordinated 
long-term strategy for the Asia-Pacific region.
    Just last week, China announced its biggest increase in 
defense spending in five years. And in truth and fact, it is 
probably more than what was made public. We would appreciate 
any thoughts you might have on that.
    China also recently conducted a successful antisatellite 
test which left debris in orbit that could endanger satellites 
and spacecraft for years ahead.
    At the same time, the potential for miscommunication and 
miscalculation in the Taiwan Strait continues to be high. 
Experts warn that potential for conflict in the South China Sea 
is also great.
    On the Korean Peninsula, the six-party talks have made some 
progress. That is a plus. Yet there is, as we all know, a long 
way to go. We need to ensure that our intelligence on North 
Korea's nuclear program continues to be sound.
    In Thailand, the U.S. watched a successful military coup 
last year. We have worked to help the Philippines and Indonesia 
struggle against terrorism as well as throughout much of 
Southeast Asia.
    Moreover, our Administration has made very little progress 
on the steps required by Congress to monitor the United States-
India nuclear deal to ensure the limits on India's ability to 
make nuclear weapons.
    Now, we have been preoccupied in the Middle East, as you 
know, and China and others have been expanding their influence 
in Latin America, Africa, around the globe. We need to consider 
who our friends and partners are in the days ahead.
    We must maintain our focus on the Pacific region. We must 
ensure that our level of strategic risk remains acceptable. Our 
own actions may well influence the choices of actions of 
others.
    Admiral Fallon, you made important progress on the United 
States-China military exchanges.
    There have been encouraging developments with the six-party 
talks, General Bell, which is a very positive move.
    So I hope that each of you will update us on the good work 
that you and your troops and your sailors, your airmen and 
Marines are doing throughout the entire region and share your 
thoughts with us on what needs to be done more.
    And before we ask you, gentlemen, to begin your testimony, 
I will turn to my friend from New Jersey, Mr. Saxton, who is 
filling in for Duncan Hunter this morning, the ranking member.
    Ladies and gentlemen, the Honorable Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman.
    The Chairman. I am sorry. I didn't see--you are so small, I 
didn't----
    Mr. Hunter. I will fill in for Mr. Saxton.
    The Chairman. You look a lot like him anyway. Thank you, 
Duncan.
    Mr. Saxton. As Jim Saxton, I will say Duncan Hunter is a 
really great guy.
    Mr. Hunter. Mr. Chairman, thank you.
    And, gentlemen, thank you for being with us this morning. I 
want to associate myself with the chairman's words about areas 
of importance in this hearing. Let me just go over a couple 
that I think need special comment.
    One, the Philippines, especially the special forces 
activities that we have, where we are undertaking advising and 
training of Philippine military forces. I think that has been 
an area that has lost focus in this war against terrorism as a 
result of the heavy focus on the war-fighting theaters.
    Second, the situation in North Korea with respect--and your 
comments about this deal, so-called action for action. Where do 
you see the north going? And you might comment about the 
capability especially of the South Korean military right now 
and its ability to handle any operations by the north.
    Last, China. This committee spent an enormous time working 
on the China issue, analyzing China. Part of our own committee 
defense review that we turned out that had a force structure 
that was greater than that recommended by the Quadrennial 
Defense Review (QDR), some of which the Administration is now 
following, was, to some degree, a function of this analysis of 
China.
    And especially the fact that China is arming--what 
significance you see there with respect to their submarine 
production, their tactical aircraft production, this continued 
development of short-range ballistic missiles. I believe there 
are between 750 and 1,000 short-range ballistic missiles right 
now.
    And last, this shot that was made on January 11th where 
they knocked a satellite out of space, whether you think that 
this heralds a new military competition in space between the 
United States and China.
    So if you could especially hit those three points in your 
testimony, we would certainly appreciate it.
    Again, I want to join the chairman in thanking you for your 
appearance and for your service to our country.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Hunter.
    Admiral Fallon.

 STATEMENT OF ADM. WILLIAM J. FALLON, COMMANDER, U.S. PACIFIC 
                       COMMAND, U.S. NAVY

    Admiral Fallon. Thanks, Mr. Chairman, Mr. Hunter, 
Congressman Saxton, distinguished members of the committee, 
General Bell, it is a great honor for me to be here in what I 
suspect will be my final testimony as commander of Pacific 
Command (PACOM), though I expect you will probably get another 
shot at me here in a few weeks with a different hat, different 
responsibility.
    But I would like to talk about Asia-Pacific today because I 
believe it is a region of absolutely vital importance to our 
Nation and to the world. We have a lot of engagement going on.
    Our wonderful men and women in uniform and those civilians 
that support them have been at work of the last year in 
promoting our Nation and our interests in this vital region.
    So it is a great opportunity for me to be back here to 
testify about the force posture and readiness and on any 
questions you might have regarding the 2008 budget.
    I will tell you that my observation is that I continue to 
be optimistic about this region overall, although there are 
certainly some concerns and we will get into some of those, I 
suspect.
    Overall, this is a region that is growing in vitality. It 
is very dynamic. Populations are growing. Economies are 
booming. And the amount of interaction between the nations 
there and between our own country are increasing at a 
phenomenal rate.
    It is very important to us and our future, from a strategic 
standpoint as well as the day-to-day economic activities in 
both countries--in our country and all the countries of this 
region.
    Of course, there are some exceptions. We have had a couple 
of events regarding the Democratic People's Republic of Korea 
(DPRK), North Korea, this year--the volley of missiles that 
were fired back in July and then the nuclear detonation of some 
sort that occurred in October.
    However, even that has tended to move back in the other 
direction with the apparent success that Ambassador Chris Hill 
has had with the six-party talks here in recent weeks and the 
ongoing discussions in New York this week.
    So I am optimistic, and even more so after two years in 
this job than when I started. There are some longstanding 
frictions and historical animosities that you can't deny. There 
is continuing unrest in some places. But again, all in all, 
there has been progress.
    The congressman mentioned a couple of setbacks for a 
democratic process this year in Thailand and Fiji, where 
military coups have taken over the governments there.
    It is noteworthy that there is no loss of life or bloodshed 
to date in these events, but they are still discouraging 
because these are countries that have worked with us very 
closely and have supported us in engagements in the region and 
around the world. So it is disconcerting, to say the least, to 
see us trending in the other direction.
    Our forces in uniform have served with distinction, not 
only in Afghanistan and Iraq but, as Congressman Hunter 
mentioned, in the Philippines, where we have an ongoing 
assistance to the armed forces of the Philippines in combating 
terrorists in the southern areas of that country.
    I have got to tell you that the results of the efforts of 
the Philippine armed forces, particularly in the last six 
months, have been very encouraging. With the assistance of our 
Joint Special Operations Task Force down there, there has been 
considerable progress in capturing or eliminating a number of 
high-profile terrorists.
    The Philippine armed forces, in an unprecedented 
operational move, have actually stayed in the field since last 
August down in Jolo, pursuing these folks. And there is really 
noticeable progress. And I sense that as this progress in the 
field continues, there is renewed enthusiasm throughout that 
country.
    President Arroyo just signed within the last couple of days 
an antiterrorist measure that has been discussed and debated 
for many, many months, and so we see substantial progress 
there. And this has been spearheaded by the efforts of several 
hundred of our men and women who have been working very hard to 
make sure this happens.
    I will tell you that we have continued, despite the 
substantial amount of forces that have been committed to Iraq 
and Afghanistan--because this is primarily a maritime and air 
theater in the Pacific, we have had generally our naval and air 
forces engaged throughout the area with our partners and 
allies, continuing exercises and other activities to help build 
their capacity and to improve the relationships we have with 
these people.
    I believe that overall, the threat of conflict in this 
region is low and continues to be that. There are certainly 
concerns with the DPRK. Despite the six-party talks, their 
track record has been spotty, to say the least.
    And as already mentioned, the increasing defense budgets in 
China and their growing military capability are something that 
we have to keep an eye on. We have to work with them. As you 
know, I am a strong advocate of continued engagement with the 
People's Republic of China (PRC), and I will be happy to take 
your questions on that one.
    I want to thank you very much for your support, from our 
men and women in uniform, and the opportunity to be here today. 
I look forward to answering your questions. I have asked that 
my written testimony be submitted for the official record. And 
I want to thank you very much for this appearance.
    Mr. Chairman.
    [The prepared statement of Admiral Fallon can be found in 
the Appendix on page 51.]
    The Chairman. Admiral Fallon, thank you very much.
    And the written testimony of each of the witnesses will be 
placed in the record without objection.
    General Bell.

   STATEMENT OF GEN. BURWELL B. BELL, III, COMMANDER, UNITED 
  NATIONS COMMAND, COMMANDER, REPUBLIC OF KOREA-UNITED STATES 
 COMBINED FORCES COMMAND, AND COMMANDER, UNITED STATES FORCES 
                     KOREA, U.S. AIR FORCE

    General Bell. Thank you very much, Mr. Chairman.
    Congressman Hunter, sir, it is good to see you again.
    And all the distinguished members of the committee, it is 
my personal pleasure to be back here in front of you again this 
year, and I appreciate the opportunity.
    For the record, I, too, would like to submit my 2007 
posture statement.
    I have now commanded U.S. and combined forces in Korea for 
more than a year and can report to you that the Republic of 
Korea-U.S. alliance is enduring and continues to function as a 
pillar of national security and regional security in that area 
of the world.
    Today we are working with our Korean partner to evolve the 
alliance to meet both nations' 21st century security 
requirements while strengthening our position in this vital 
U.S. national interest area.
    You know, for nearly 54 years our alliance has successfully 
deterred North Korean aggression, and we are all pleased with 
the progress made in the latest round of the six-party talks, 
and we are very hopeful for the future, as Admiral Fallon said.
    Nonetheless, as you would expect, I remain cautious about 
North Korea's long-term intentions. Kim Jong-Il has a history 
of manipulating the international community in an attempt to 
shape the political and military environment to meet his 
objectives.
    And obviously, as we have already said today, his highly 
provocative military actions this past year, including 
unprecedented missile firings and the detonation of this 
nuclear device, represent a continuing threat to international 
peace and security.
    Since its inception about 30 years ago, the Combined Forces 
Command, which I lead, has been the war-fighting command of the 
Republic of Korea-U.S. alliance. For the past several years, we 
have been consulting with the Republic of Korea regarding 
alliance transformation and the restationing of U.S. forces on 
the peninsula.
    Recently, just several weeks ago, the United States and 
Republic of Korea agreed to transition the operational command 
and control of Korean military forces from the Combined Forces 
Command headquarters back to the Korean military and to do that 
in the year 2012.
    This is a very important event, something that we have been 
seeking to achieve throughout the history of this alliance, and 
something now that we have a date to finally execute here in 
the year 2012, so I am very proud of that.
    It will result in the establishment of new U.S. independent 
and supporting joint command. Obviously, the United States will 
retain clear national command over all U.S. forces and 
personnel involved in future military operations in the 
Republic of Korea.
    Our force restationing, which I would like to address just 
quickly--the two enduring hubs south of Seoul will allow us to 
focus on improving living and working conditions while also 
providing our forces with greater tactical and operational 
flexibility.
    The Republic of Korea has agreed to fund a majority of our 
restationing costs, including a significant majority of our new 
facility construction.
    To synchronize the contributions of both the ROK and the 
U.S. in that restationing effort, our sustained access to 
several different U.S. funding programs will be very important, 
including military construction and commercial build-to-lease 
programs, and I appreciate your support in that.
    In view of this, I do request your full support for our 
fiscal year 2008 military construction (MILCON) request--it is 
very small and modest; it is small, it is not even modest--and 
also, importantly, our legislative request which is working its 
way through the staff now to adjust our commercial housing 
lease caps in Korea so that they are more in tune with the 
current cost of living over there.
    This will enable the Army to actively solicit build-to-
lease housing options for our service members and their 
families, thus enabling their move to these enduring hubs.
    You know, only two percent of the U.S. active military is 
stationed in the Republic of Korea today. The other 98 percent 
is somewhere else. The war over there ended 54 years ago.
    It is time to end our one-year war zone rotational tours 
which needlessly add to our high worldwide operational tempo 
while handicapping our engagement opportunities with our 
longtime Korean ally.
    So I am advocating three-year normal family-accompanied 
tours for our small force in Korea. It is absolutely the right 
thing to do, and I would appreciate your fiscal support for 
this as I pursue it in the Department of Defense.
    I am very proud of our dedicated American service members 
and civilians serving in the Republic of Korea. I really do 
thank you for this opportunity to appear before you today. And 
I look forward to your questions. Thank you very much.
    [The prepared statement of General Bell can be found in the 
Appendix on page 88.]
    The Chairman. I thank members for joining us so early in 
the morning. And we will remember we are under the five-minute 
rule, and we are doing very well.
    Admiral Fallon, let me ask you a quick question as well as 
comment on General Bell's--and then call the other members.
    There are present tensions in the Taiwan Strait and have 
been for some time. What, if anything, is the Pacific Command 
currently doing to defuse those tensions?
    And, General Bell, I comment on your wanting to change the 
one-year unaccompanied tour in Korea to the accompanied tour. 
In 25 words or less, if you could expand on that.
    But, Admiral Fallon, please.
    Admiral Fallon. Mr. Chairman, the situation in the Taiwan 
Straits--my assessment is less tense than it was two years ago. 
At the time that I was coming into this job, things were on the 
rise and not particularly good.
    I believe that improvements have been made. Some of this is 
the business of the PRC and the leadership--Chen Shui-bian and 
his government in Taiwan and their interaction.
    But things that we have done from Pacific Command are to 
work both sides of this equation--with Taiwan, to continue to 
support them in their defensive capabilities, to encourage them 
to take steps that actually enhance their ability to defend 
themselves should there ever be any military aggression.
    We have worked closely with them in assessing their needs 
and strongly encouraging them to take steps that we think are 
actually useful.
    And I am very happy to report that our observation over the 
last two years--and we are coming up on their next major 
exercise cycle--has given us the feeling that they have gotten 
the message and they are actively undertaking those measures 
that we think would be very useful.
    On the other side of the street with the PRC, we have 
actively engaged with the military. I would make note of the 
fact that we have in recent years, up until very recently, had 
very, very little mil-to-mil interaction with these people.
    Although the commercial and economic and political and 
almost every dimension of the relations between the U.S. and 
the PRC have been expanding exponentially, mil-to-mil had not. 
We are moving forward.
    This is challenging, though, for a lot of reasons, not 
least of which is where we are coming from. But I think we have 
made some progress there, and we are seeing openings.
    I would highlight that within the past year we have had the 
first-ever exercises between the military forces. They were 
modest. It was just a search and rescue, primarily naval and 
air, that took place in two segments, one off the coast of 
southern California near San Diego and the other one in the 
East China Sea.
    As we have this hearing under way today, there is another 
exercise going on in the Central Command region in the Indian 
Ocean that involves the PRC and U.S. forces. It is being hosted 
by Pakistan. And this, to my knowledge, is the first-ever 
multilateral engagement.
    So we see progress there. I think there is a lot of work to 
be done. This goes day to day. But that is a summary of our 
activities, sir.
    The Chairman. Thank you. I remember, two years ago several 
of us were in China and the comments we received regarding 
Taiwan and the Taiwan Straits were at that time rather 
disturbing. And I am glad to see that your assessment is more 
of a positive one.
    General Bell.
    General Bell. Thank you, Mr. Chairman.
    You know, sir, 37 years ago 2nd Lieutenant Bell showed up 
in Germany and was assigned to a little outpost right on the 
border, a cavalry unit--very theoretical, dangerous location, 
100 Soviet and other East European divisions right across from 
us, two Soviet divisions physically right across from us, and 
they all had nuclear weapons.
    And the United States military authorized Lieutenant Bell 
to bring his brand new bride with him, and my son was born in 
that little town 12 kilometers from the East-West German 
interzone border.
    And I look back on that as to why the United States would 
take that risk in the face of such a daunting enemy, and I 
rationalized that, and then I moved to Korea 37 years later--36 
years, now 37 years.
    And I wonder why it is so different over there, why we add 
to our operational tempo around the world by one-year rotations 
of young people who have already left their spouses and their 
kids for three or four times in Iraq and Afghanistan, and I add 
a fifth time or a fourth time, separating that family and 
causing hardships.
    I add to the cost of these endless rotations every year of 
permanent change-of-station costs and moving families all over 
the United States to find the next location that their service 
member is going to show up in.
    And then I look at the final debilitating piece of that, 
and that is that the true engagement strategy that we could 
have with our Republic of Korea ally--where families engage 
culturally and in partnership on the weekends, they get to know 
each other, they make lifelong friends, and we build the 
alliance one family at a time--is all lost, because my service 
member, airman, Marines, Army, et cetera, are sitting in the 
barracks lonely because they are missing their family, because 
most of them are married. Over 60 percent of our military is 
married.
    I believe it is time, 54 years after the armistice, and 
given the very modern nature of the Republic of Korea--big 
universities, 10th largest economy in the world, 49 million 
people in a very modern state--it is time for us to transition 
from a 1-year combat rotation mentality, which it is not over 
there, to a normal 3-year accompanied tour.
    It would lower optempo for our military substantially. It 
would give us an engagement opportunity. And it would do right 
by our families. And so I am advocating it. And I think over 
time, sir, you will see the costs amortize, if not even less 
than what it is costing us now. And the Republic of Korea will 
help us do this.
    Thank you, sir.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    On that point, General Bell, have you discussed this, in a 
formal or informal way, with families of your personnel? If you 
are looking at this thing as the husband goes off for one year, 
the wife goes off for one year, and you are reunited after one 
year as opposed to moving everybody but having a three-year 
stay in Korea, what are their druthers?
    General Bell. Thank you, Congressman.
    The overwhelming majority--and I have sat down with many, 
many families on this issue, because quite frankly, sir, we 
have right now in Korea today about 5,000 family members. About 
3,000 of them are authorized to be there.
    Out of our 30,000-person force on the ground today, 10 
percent are authorized to bring their families. That is because 
they live in locations that we have determined over the years 
are not dangerous locations. The other 90 percent are not 
authorized to bring their families, so the people I have talked 
to are those who have their families there now.
    I have not talked to a single spouse--mostly ladies but, 
again, there is some guys--not one that would not opt for an 
opportunity for an overseas tour.
    You know, the old notion of being in the military and 
seeing the world, or the Navy and seeing the world, I guess--
would trade the opportunity to be with their family to close 
that one-year gap, to be in, say, the Republic of Korea, have 
the chance for travel in Asia, which the ten percent take 
advantage of now, engage with Korean citizens, which they do 
now, the ten percent.
    I have not had a single spouse that has told me they would 
not like to do this. Sir, there are about 2,000 spouses there 
who have come unauthorized. And when I say authorized, we 
authorize a certain number to bring their spouses based on the 
facilities that we have available.
    But that doesn't prevent a spouse from coming over there at 
her own expense.
    Mr. Hunter. General, let me ask you, would that include, 
though, times of heightened tension with respect to the 
emerging nuclear weapons capability of North Korea? Do you 
think you would have the same strong feedback that they want to 
be there, that their families want to be there during times 
like that?
    General Bell. Congressman, we are in the process of moving 
our force from north of Seoul to well south of Seoul, so in 
terms of a conventional threat, we are significantly moving out 
of the way, if you will, while still on the peninsula. There 
are tensions there.
    Mr. Hunter. You are getting out from under the----
    General Bell. Yes, sir.
    Mr. Hunter [continuing]. Fan of the North Korean artillery 
tubes, right?
    General Bell. Absolutely. But I would offer to you, again, 
from experiences I have had, it is not unusual, and has not 
been in our history, for families to be with their service 
members under the arc of nuclear weapons.
    We certainly did it in Europe for decades. And we accepted 
that for a lot of reasons. I am not going to tell you it was 
all philanthropy. It was partly because the military in Europe 
was so large that rotations were not something that made sense.
    But given the nature of the North Korean military right 
now, which has degraded over the last 15 years to 20 years, 
certainly since the end of the Cold War, their conventional 
capability is not to the level that it was 20 years ago. And I 
can detail that.
    Their ability to shoot nuclear weapons down south is 
nonextant right now. And I am very hopeful about the six-party 
talks. So we are positioned right now, as we move the force 
south of Seoul, to change the paradigm if we choose to. And I 
think it is healthy, proper, and spouses want it.
    Mr. Hunter. Okay.
    Just real briefly, Admiral Fallon and General Bell, the 
strong points and the weak points of this deal, the North 
Korean deal. And you might just describe it briefly for the 
members here, the highlights of the deal itself.
    Admiral Fallon. This is a work in progress, and I would say 
that there is an awful lot of detail yet to be done. There is 
an agreement to address the ongoing nuclear development in 
North Korea that over the following months is going to be laid 
out in some detail.
    But our belief is that the intention here or the agreement 
is that we would get the North Koreans to stop their continued 
development of nuclear weapons. They have an ongoing process of 
extracting plutonium and turning that into weapons-grade 
material that we would expect to see stopped.
    My perspective on this is that there is substantial 
progress in just getting that agreement, in getting the six 
parties to sit down and to get North Korea to agree to move in 
this direction. I think there is a lot more yet to be done, and 
I will let General Bell comment.
    General Bell. Sir, the arrangement is--and I will just 
quickly summarize it also--within 60 days, the North Koreans 
have agreed to shut down their reactor which produces this 
plutonium. And so, you know, we will watch that. And at the 60-
day point, the thing is supposed to be turned off. And that is 
something that we can watch very closely.
    At the same time, the North Koreans are supposed to allow 
the International Atomic Energy Agency (IAEA) inspectors to 
begin to return to North Korea to begin their inspections.
    And then in the next phase of this, after 60 days, the 
north--and oh, by the way, the return on that is that some 
amount of fuel oil will be provided to the North Koreans and 
some other processes will begin, so you have got confidence-
building measures going on on both sides.
    After 60 days, the agreement is that they will disable 
their Yongbyon reactor so that it can't be brought back online 
and their other programs, while declaring all their programs, 
including the plutonium reprocessing, potential highly enriched 
uranium programs, which is a matter of debate right now, et 
cetera.
    And then based on that good effort by the North Koreans, 
the other five parties and other interested nations will begin 
to provide economic, humanitarian assistance, including a very 
large 950,000-barrel deal on oil for them to have for fuel.
    So this is a strong agreement. I am absolutely in favor of 
it. Its weakness is, like any agreement with North Korea, in 
the past they have, in almost every case, ultimately broken 
these agreements. So that is what we are all watching.
    I think the good news is that this thing is phased in a way 
where we are not going to be awakening one day to find out that 
we have a bad deal, that we have done something--we have given 
them something but we didn't get in return what we expect. 
Those guarantees are in place, and I am very optimistic about 
the procedure.
    Mr. Hunter. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before I call Mr. Ortiz, let me suggest this subject to the 
approval of my friend from California, Mr. Hunter.
    At the next hearing, because those in the front part of our 
area here have been so faithful in coming, I am going to call 
on them at the beginning of the next hearing, which I 
understand will be European Command (EUCOM) and Joint Forces 
Command.
    If that suits the gentleman from California, we will do 
that at the next hearing.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Admiral Fallon, good to see you again, sir.
    General Bell, welcome.
    Admiral, I was just wondering, maybe you can describe and 
explain the risk and impact involved with using Army and Marine 
Corps unit from within your command to support the war either 
in Iraq or Afghanistan.
    And how do the reset and readiness issues upon their return 
impact on your PACOM mission requirements and responsibilities? 
I know we talk about readiness and we are stretched thin.
    And if we were to have another conflict in that part of the 
world, can you elaborate a little bit on that, how this is 
going to impact on you and your command?
    Admiral Fallon. The first comment I would make is that the 
Asia-Pacific area is primarily a maritime and air region. That 
is the bulk of the geography, and our contingency plans are 
focused on that reality and the fact that we enjoy quite a bit 
of operational capability in those areas. So we would put a 
preponderance of our response to any situation in the hands of 
our maritime and air forces.
    The one area that we would watch very closely is General 
Bell is in Korea. Although we are always on the alert because 
of the historical unpredictability of the North Korean 
activities, we believe that today on the peninsula that--
General Bell can address this better than I--that the ROK land 
forces are very capable of defending that nation should the 
north decide to attack.
    We have part of our Second Army forces up near the 
Demilitarized Zone (DMZ) in position to support that defense. 
But I think that the situation there is generally in good 
shape. We have watched this very closely as we have taken units 
and put them over in Iraq and Afghanistan and rotated others.
    In the rest of the theater, it is primarily maritime and 
air, and we are well postured. And we have demonstrated that 
within the past year with several significant exercises to make 
sure that we can respond to those kinds of crises.
    So it is something that I watch very closely. The thing 
that I am really attuned to is the rotation of the forces that 
are based here, particularly those soldiers and Marines in 
Hawaii, Alaska, the west coast of the U.S. that are in the 
rotation, and specifically within those rotations the wear and 
tear on our non-commissioned officers (NCOs) and mid-grade 
officers, which is the critical leadership capabilities. I am 
watching these very closely.
    But I feel fine. I feel okay. I am not concerned right now 
about our ability to respond to any likely contingency in the 
region, given that we rely so heavily on our maritime and air 
forces, which have not been particularly heavily tasked right 
now.
    Mr. Ortiz. Because one of the things that we are concerned 
with is the lack of the Army, General Bell, prepositioning 
stock. How does the readiness of the Army prepositioned stock 
affect your mission requirements and security responsibilities? 
Because we need to look at the sustainability if we go into a 
conflict. How do you stand on that?
    General Bell. Congressman, I would tell you up front there 
is great stress on the Army and the Marine Corps right now. I 
think we all know that. These forces are highly committed.
    Our equipment stocks that have been rotated into the combat 
zone are going through an extensive refit program, but they are 
in the line to be refitted and they are not available for 
employment. So there are a range of stresses.
    I do want to point out from my foxhole, where I sit, that 
Admiral Fallon is exactly right about the threats that we face 
in the Pacific and specifically, from my perspective, in Korea. 
The Republic of Korea military is extremely competent. They are 
a modern nation with a modern military, modern battle command 
capabilities, and very good equipment.
    If you will, their opponent--hopefully they won't always be 
opponents, but their opponent at the end of the Cold War lost 
their client states, Russia and China, in terms of resupplying 
the large quantities of materiel and equipment.
    The exercise program that they had in those days is no 
longer conducted. So North Korea is quite isolated with respect 
to their ability to generate combat power. So I have the same 
confidence Admiral Fallon does that our air and naval forces, 
in conjunction with the Republic of Korea army, are much more 
than a match for the North Korean army.
    Now, prepo stocks--we have one brigade prepo set in Korea, 
APS, Army prepositioned stocks, brigade combat team. We have 
some other prepo, but that is the core of it. It has 100 
percent of its combat equipment. I inspect it pretty 
frequently, walk around and look at it.
    It is missing some trucks, I will tell you. Some numbers of 
trucks and Humvees are not there. And none of the trucks and 
Humvees in that prepo set are up-armored like we see in Iraq.
    But the core combat equipment that we need for that fight 
is all present. It has not been used by anyone. It has been 
sequestered for Korea. And so there has been a real commitment 
to not get into those prepo stocks and use them in this war 
effort.
    So I think the Army has done a very good job of maintaining 
the equipment and keeping it razor ready.
    Sir, in the next two weeks we are going to draw a sample of 
that stuff with a battalion coming over from the United States 
as part of an exercise. We are going to drive it up to a range 
and we are going to shoot it, and we are going to see what 
happens. And I will be glad to report back to you on the 
results of that exercise. I am pretty optimistic.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Ortiz. Well, thank you so much, and we hope to visit 
you soon.
    General Bell. Yes, sir.
    Mr. Ortiz. Thank you so much.
    General Bell. We look forward to it.
    The Chairman. Thank you very much. Let me make mention of 
the fact that the two gentlemen before us are rarities in our 
United States military.
    General Bell is on his second major command, having a major 
command in Europe and now in Korea. And Admiral Fallon is 
leaving the Pacific Command to assume command of the Central 
Command. And what you are viewing here in front of us are two 
very, very, unusual military Americans.
    Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here with us this morning, 
and thank you for your service to the country.
    I would like to just focus for a minute on one of the major 
threats that comes from the area, and that is the nuclear 
threat delivered by intercontinental ballistic missiles. It 
concerns me that we don't seem to be moving forward as fast as 
we might, given the seriousness of this threat.
    And let me just say right up front that we collectively 
established the Missile Defense Agency because we thought that 
likely all of the services had something to offer, so we chose 
not to turn this mission over to one service but established 
the Missile Defense Agency to carry out this mission.
    And quite frankly, I am not sure that the Missile Defense 
Agency has adequately partnered with the services. And I guess 
I am thinking specifically of the Navy. It seems to me like 
that partnership perhaps has not manifested itself as perhaps 
it was intended.
    So let me just ask this. Can you please comment on PACOM's 
overall missile defense requirements and how these requirements 
are being addressed by the services and by the Missile Defense 
Agency?
    Admiral Fallon, would you start that for us?
    Admiral Fallon. Sure, Congressman. First, if I could, allow 
me to give you, the perspective from Honolulu is that we have 
made significant strides this year in missile defense for the 
Nation.
    No doubt that this was spurred by the activity in North 
Korea, which one aspect of this is that it forced us to really 
pay attention to the details of what we might do if the North 
Koreans, for example, were successful in actually getting this 
missile they call the Taepodong to actually function as we 
think it was designed.
    It did not, and that failure--and that is the second one in 
as many shots for them--is encouraging only in the sense that 
it is one less thing to worry about.
    However, going on the assumption that this thing--sooner or 
later they may figure out how to make it fly correctly, we have 
got to be prepared. And what we discovered was that we needed 
to really refocus our attention to the pieces of the chain in 
which we would be able to detect and then do something about 
these missiles if they threatened the U.S.
    So if I could walk through with you where we are today, 
first of all, at the front end of the situation--and that would 
be looking at North Korea, which is the one country that has 
the potential to threaten us--they have in being today an 
ability to launch short- and medium-range missiles that can 
cover the peninsula of Korea as well as our close strategic 
ally, Japan.
    They cannot reach this country, to the best of our 
knowledge. But if there were to be a missile launch coming out 
of North Korea, that would be detected today by a combination 
of sensors--first, a recently deployed X-band radar that is in 
a place called Shariki in northwestern Japan that is capable of 
very fine detection and tracking of this missile.
    There are also the Aegis-weapon-system-spy-radar-equipped 
U.S. Navy ships and now Japanese naval ships of the Maritime 
Self-Defense Force that are on station and equipped with a 
modified spy radar to actually detect and work very effectively 
against these missiles.
    And those ships are being upgraded and deployed. We have a 
significant number already out there in the Pacific full time.
    A combination of these two sensors would be helpful in 
responding to an alert, which--we still rely on our overhead 
systems for an initial warning here. But these sensors we would 
expect would pick up the missile and then track it as it heads 
up in its trajectory.
    Another new development is the recent deployment of a sea-
based X-band radar. This is on a converted oil platform that is 
actually now on station near the Aleutians. This is a much 
larger sensor than the one in Japan, and it has an ability to 
detect and track incoming missiles should they be headed for 
the U.S.
    This is linked into the National Defense System with a node 
in Hawaii and back at Northern Command (NORTHCOM), Admiral 
Keating's command, to provide the sensors.
    As far as how we would deal with this system, there are 
ground-based interceptors, as you are aware, in the U.S. and 
there are also some newly modified standard missiles on some of 
the Navy ships, the Aegis ships, that are forward deployed in 
the Pacific to deal with this.
    So these pieces and the network that ties them together are 
new this year. This is the first time we have actually had this 
complete system arrayed and tested, and we did it in real time 
during these missile shots back in July. So I think we have 
made a lot of progress here.
    Mr. Saxton. Mr. Chairman, may I----
    The Chairman. I thank the gentleman.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    I want to welcome the admiral.
    And, General, thank you for being here.
    And I want to yield my time to Ms. Castor, the gentlelady 
from Florida.
    Ms. Castor. Well, I thank my colleague very much.
    And, Admiral, we look forward to welcoming you to Tampa 
when you assume the command of Central Command.
    The growing military transformation and investments of 
China are of particular interest to our country. Could you give 
us an outline and a sketch of how much military-to-military 
contact there is that will lend itself to the United States 
understanding the investments that the country of China is 
making?
    And what do we know about where they are spending their 
money? And what do we know about arms sales that appear to be 
increasing, China's arms sales to other nations across the 
globe?
    Admiral Fallon. Sure, ma'am. I would be happy to. We have 
significantly upgraded the mil-to-mil relationship between the 
two countries, but we are starting from virtually nil--long way 
to go. We do not have the kind of exchanges that we normally 
enjoy with the vast majority of nations, certainly, in the 
Asia-Pacific.
    Things are very measured, and the process right now is one 
that has a number of constraints on it. First of all, there is 
the existing legislation of the 2000 National Defense 
Authorization Act (NDAA) which proscribes a long list of 
activities that would certainly bound our engagement with the 
PRC.
    And most of that, if I could summarize, is in the 
operational nature, so that we wouldn't disclose operational 
capability. I think that was clearly the intent of Congress 
when that legislation was passed.
    Nonetheless, there is still opportunity there to do a lot 
of work, and we are trying to take advantage of that--as I 
mentioned previously the exercises that were done this year.
    I have been over there three times in the past two years 
and have found that each time I was exposed to more activities 
and got to see more things and engage in more useful and 
realistic dialogue with the leaders, as opposed to just notes 
and fixed statements.
    Now, we have a long way to go. But what I have discovered 
is that most of their people have no idea what it is like to 
work with us. They don't understand us. Most have never met any 
U.S. military personnel, not to mention a senior leader. And so 
they are very interested, very eager, I think, at the working 
level to get moving here.
    We have a number of exchanges that are primarily school-
related, war colleges and high-level delegations. There has 
been one initiative I think is pretty interesting in the past 
year.
    We have had several now of midlevel officers--06s, 05s, 
07s--from both countries that have actually gone and spent a 
week or two getting around and seeing things.
    And these, I think, are really the most valuable, because 
these are the people that are going to be the up and coming 
decision makers in the future. And the old guys like us--we are 
here today but probably not for too long.
    The chairman was very kind describing the amount of service 
we have had. I think that is a nice way of saying we are old 
guys who have been around a long time, a couple of crotchety 
dinosaurs.
    But the fact that we have been around and we have seen a 
lot of things--and we recognize the need for continued 
engagement here.
    Now, the PRC is an interesting challenge for us. It is a 
country that for many decades was clearly inwardly focused. It 
didn't engage with the world.
    We, from the U.S. standpoint back in the 1970's, made an 
attempt to get them out of that shell, to get out and about and 
in the world and to do things that are really more like the--
probably appropriate for a country that large, with that many 
people, and the potential they have.
    Over the past decades that has actually occurred, the 
military relationship being the laggard there. But as China 
comes out of its shell and begins to engage, there are aspects 
of this that we would like, such as their huge economic impetus 
to our Nation and the tremendous good that we benefit from in 
terms of low prices and a multitude of goods.
    The Asian nations benefit immensely by the growth of China 
economically, because the countries around the periphery get to 
sell things into the Chinese domestic market.
    Ms. Castor. I hate to interrupt you, but my time is short.
    Admiral Fallon. Yes.
    Ms. Castor. Do they appear to be particularly interested in 
investments in weapons systems or developing their ground 
forces? Is there enough transparency or on your visits has it 
been apparent to you that they are focusing on one area over 
other----
    Admiral Fallon. In your initial question, you alluded to 
the fact of the Chinese selling weapons and things to other 
people. We see very, very little of that in the Asia-Pacific 
region. Their selling is finished goods, economic, not 
military, activities.
    They are importing weapons systems, primarily from Russia. 
These are ready to use kind of state-of-the-art things, and we 
see them doing that. It shouldn't be surprising to me. They 
have got money that is coming out of their ears.
    They are sitting on the largest cash hoard in the world, 
and--not surprising, because our observation is their military 
has a huge way to go. Primarily defensive--they are growing in 
capabilities.
    They clearly have been given a task, and that is to be able 
to take care of a Taiwan situation, and they know that since we 
are pledged to help Taiwan defend itself that they will need to 
counter our capabilities. So we see a lot of work, like this 
antisatellite shot that is, I think, clearly designed to 
counter our capabilities.
    That said, they have a long way to go. Their ground forces 
in particular are defensively oriented and focused, and they 
are trying to grow these forces. So I think we could spend an 
hour on this topic. It is too complex.
    But we see them evolving. I do not see them as particularly 
threatening right now. We are certainly watching their 
capabilities, and we would encourage them to be more open and 
more transparent.
    We have had this theme repeatedly in our discussions. They 
push back on it. They say, ``Well, you know, we are telling 
you, we are focusing, we are doing things on people.''
    But still, they are investing a lot of money in strategic 
systems that don't appear to be particularly defensive 
oriented. So I think it is going to benefit from continued 
engagement, and that is probably our best opportunity to get 
them more into the open.
    Ms. Castor. Thank you very much.
    The Chairman. I thank the gentlelady.
    The gentleman from New York, Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, I join my colleagues in bidding you welcome and 
thank you so much for your service.
    Admiral, good luck in your next posting particularly.
    General Bell, I was very heartened to hear your comments 
about the question of the Korean unaccompanied tour. I have had 
the chance to be there a couple of times, had Thanksgiving 
dinner up on the DMZ, and it is an extraordinarily dangerous 
place.
    But if you, as you very aptly describe, look at it in the 
larger context of things, the change you suggest makes a lot of 
sense. And I just wanted to kind of put that out there.
    I am going to switch back to Admiral Fallon and let him 
kind of go a little bit more about China. The first question I 
would have is--you are to be commended for your efforts to 
engage the Chinese, and it really has been a personal 
commitment by you.
    I am wondering, number one, if you have had a chance to 
talk to your successor, Admiral Keating, about that. Do you 
think he will keep up that level of commitment?
    And as to engagement, could you describe for us your 
perception as to our engagement with China, if at all, on 
issues of nonproliferation and terrorism? And what is the level 
of cooperation from your place that you see, or lack of 
cooperation there?
    Admiral Fallon. Yes, sir. I talked to Tim Keating. He is 
anxious to come out to the Pacific. We have had a number of 
discussions and we have had a team briefing him on a lot of the 
details of this. So clearly, great value here, and he 
recognizes that, and I expect that he will continue to try to 
strengthen these relationships.
    Regarding nonproliferation, yes, we have had discussions 
here, and I would say in two areas. The issue of nuclear 
weapons certainly has the attention of the Chinese and their 
efforts in the six-party talks--in which they have been 
instrumental, according to Ambassador Hill, in moving these 
talks forward.
    As the former staunchest ally of the DPRK, it has been very 
heartening to see their engagement on these talks.
    In regard to terrorism, it is a good subject. They are 
concerned about terrorism within their own borders, 
particularly out in the west with potential Muslim extremist 
activity in their western provinces.
    Regrettably, during my time I have not yet had the 
opportunity to get out to that region of China to actually meet 
with their folks out there and get an assessment of it, how 
they really react to it. They have invited me to go, but I am 
just not going to--I am going to run out of time here.
    It has their attention. It is one of the areas, I think, 
that we can find mutual ground in moving forward, and it would 
be a fruitful area if Admiral Keating has the opportunity to 
pursue that.
    Mr. McHugh. Well, maybe you can get the chance to mention 
that to him, because it is a big, big problem. And obviously, 
we would much rather have China more on our side than less.
    General Bell, can you just describe what you believe the 
North Korean perception is of the U.S. redeployment, the 
reduction of our footprint? We are moving south. I feel pretty 
comfortable we know why we are doing it, and there is a couple 
of different dimensions to that.
    But what kind of read do you think the North Koreans are 
getting? And what, if anything, are we trying to make so that 
they don't get the wrong read and make some really stupid 
decisions based on a misinterpretation of what is going on 
there?
    General Bell. Thank you, Congressman.
    You know, trying to figure out what North Korea thinks is a 
bit of a crapshoot. But I will tell you what I think they 
think. And I study this a lot and I consider it a lot. It is 
obviously a very key element of the equation of stability and 
security in that area of the world.
    You know, first and foremost, the North Koreans clearly 
want security for themselves. They want to know that their 
regime is not being threatened. And we are the biggest threat 
to their regime.
    They know that and we know that, and that is why we are 
there, to deter any provocative acts by the North Koreans or 
even potential attack on the south or the neighbors.
    And so, you know, one of the things that they are afraid of 
is us. And I don't think it matters where we are positioned in 
the Republic of Korea, whether along the DMZ or whether we are 
down south.
    As long as the United States makes a commitment to the 
Republic of Korea, as long as our alliance remains solid and 
sound, the North Koreans are going to have to deal with the 
United States and the Republic of Korea.
    As long as the friends in the neighborhood--China, Russia, 
certainly Japan--are concentric in our global view of North 
Korea, I think they will be concerned that they will have to 
deal with all those parties. And that is why--the strength of 
the six-party talks.
    So I am not concerned for a second about the movement of 
our forces south or our force draw down. Our principal 
capability day-to-day is our air and naval capacity.
    We have an extremely capable air component right now that 
has not only very capable and robust forces on the runways in 
South Korea but also in the area, whether it is Japan, Guam, 
Hawaii, or on carrier decks.
    I think North Korea is very sensitive to that air 
capability. They watch us. They have got radars up that take a 
look at what we are up to. Every time we bring a B-52 from Guam 
and do practice bombing in the Republic of Korea to hone our 
skills, they know it flies by, and they come up on the net.
    So I think the move south is appropriate and it is proper. 
I know it is. We have got a very good Republic of Korea 
military. They are quite capable. The North Koreans will 
continue to try to divide our alliance if they see it in their 
interest.
    But I think in the last couple of months that there is such 
hope for the future that this probably is all appropriate. Us 
moving south, being a little less visible, not being in the 
lead so much I think is very appropriate. And we will keep an 
eye on it as we go forward, but I am relatively optimistic, 
Congressman.
    The Chairman. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    General Bell, the discussion about going for the one-year 
unaccompanied to the three-year accompanied--we are still early 
in this year, but time goes by pretty rapidly.
    If there are specific legislative changes that we need--or 
maybe you have already given that to somebody on the committee, 
but the sooner we know what kind of details we would have to 
have--and if your seniors are signing off on that, and if there 
is anything we can do in this defense bill, then we need to get 
it done.
    Is it fair to say that the 2,000 or so that are there on 
their own volition take some kind of financial hit by having 
moved themselves there? The 2,000 spouses that are not 
authorized, I assume that--are they flying--are there perhaps 
additional expenses because they are unauthorized they would 
not have otherwise?
    General Bell. That is a great question. And just let me 
tell you who has the authorities. One, I can adjust the 
accompanied tour rates--the accompanied tour rates--any time I 
want to. What I can't adjust are the tour lengths.
    And so, for example, if I chose unilaterally tomorrow to 
say to those spouses who followed their service members there 
unauthorized, ``You are now authorized,'' I could do that. And 
by the way, Congressman, it is my intention to do that.
    I hold in great regard these young people who, in spite of 
our inability to take care of them fully with a full range of 
services, follow their service members around the world so that 
they can have a united family.
    Now, to be honest with you, our service structure--our 
medical, our dental, our commissaries and our post exchanges 
(PXs) et cetera--allow those who are, quote, not authorized 
access on a so-called space-available basis.
    And overall--and I have looked at this very closely--we are 
doing a darn good job of accommodating those who are not 
authorized in all of our service arenas. So therefore, a 
spouse--a lady that has got a young baby who is not authorized 
is still being seen in our hospital on a space-available basis.
    So I am optimistic I can make change pretty quick to 
accommodate those who are there and to grandfather them and 
bring them into the family.
    Dr. Snyder. Well, if there are specific legislative things 
that we need to consider, then the sooner that we get those, 
the better.
    General Bell. Thank you, sir. I appreciate it.
    Dr. Snyder. Admiral Fallon, I wanted to ask, some years 
ago, the Government Accountability Office (GAO) did a very 
comprehensive study on hardship postings, and they sent people 
out to China and Africa posts. And their conclusion was that 
there was really a lot of incentives in the State Department 
personnel policies that resulted in the wrong people being put 
into slots at these hardship posts around the country in terms 
of lacking language skills and things like that.
    One of the things that came out recently here about Iraq is 
that when the President announced his plan for an increase in 
troops in Iraq simultaneously with an increase in provincial 
reconstruction teams, that the secretary of state had to ask 
Secretary Gates to provide about 130 of the 138 additional 
people because she couldn't get people to volunteer to go, or 
didn't have the right mix.
    I was discussing this with a high-ranking military officer 
who--I said, ``It seems like to me the metaphor is that the 
military is like the great offensive line. It is just the 
quarterback is only coming in every other play.''
    And he said, ``No, that is not the metaphor. The metaphor 
is we are the great offensive line. It is just instead of 
sending in football players, they are sending in really 
enthusiastic soccer players, and that is not the game that is 
being played.''
    And so my question is: As you said earlier, the threat of 
conflict is low in the Pacific Command, and you are going to 
Central Command. How do you see the relationship now in terms 
of what other government agencies could or should be doing to 
better further the national security mission of this Nation?
    We talk about that our national security is not just 
military. You are an important part of it--but that we keep 
hearing problems about other government agencies not being able 
to do the kind of things that we think they ought to do, 
whether it is in Iraq or other places. What is your view of 
that now?
    Admiral Fallon. If you will allow me to confine my comments 
to the Asia-Pacific and maybe give me a buy till next month or 
whenever we have the next hearing on CENTCOM, I am really, 
really pleased.
    I will tell you this quite honestly and quite up front, 
because I have heard all the stories and, frankly, had some 
mixed experiences in the past. But we have made progress in the 
Asia-Pacific specifically, I think, due to the good 
relationships we have had with the interagency.
    We work very closely with our Department of State in each 
of the countries in the region. We have had incredible help 
from the United States Agency for International Development 
(USAID) in helping to grow capabilities and set conditions in 
particularly developing countries.
    I could start and spend an hour here ticking off our 
successes, I believe, in Indonesia, in the Philippines, for 
example, and other countries.
    We work very closely in countries that are challenged--
Nepal comes to mind--an insurgency for a decade now. The 
country has been torn up. They are kind of moving forward and 
fingers crossed that they might be able to get out of this.
    And in Sri Lanka, ongoing civil war for decades now; we are 
doing our best to try to help them in each of these areas.
    I would highlight an area of high interest to our country, 
and that is maritime security, particularly in the narrow 
waterways like the Strait of Malacca, where we have worked very 
closely with the neighboring countries--Malaysia, Indonesia, 
Singapore, for example, and Thailand--to help them grow the 
conditions--most of this activity is moving forward because of 
a close working relationship with other agencies through our 
embassies. So from my Pacific perspective, I think things are 
really good.
    Now, if I could defer judgment, I know that we are putting 
a huge demand signal on our country to help out in Iraq and 
Afghanistan, and I would like to address that maybe next time.
    Dr. Snyder. Absolutely. Thank you.
    The Chairman. Thank you.
    The gentleman from North Carolina, Mr. Jones.
    Mr. Jones. Thank you, Mr. Chairman.
    And, Admiral Fallon and General Bell, thank you very much 
for your service to our Nation.
    And I wanted to ask just two or three questions.
    The first, Admiral or General Bell, give me an idea--maybe 
it is in your testimony; I haven't had a chance to read it. But 
give me an idea of the North Korean air force, where it is 
today compared to ten years ago, if it has made any progress in 
building up the air force.
    And then I have a couple more questions.
    General Bell. Thank you, Congressman.
    The North Korean air force is what I would call a legacy 
air force. They got most of their aircraft during the Cold War. 
They don't make any new aircraft. They do overhaul. They are 
not getting new aircraft from any of their traditional 
suppliers. And so they are making do with what they have.
    These aircraft are capable. The large majority are the kind 
of aircraft that you would anticipate them to insert special 
operations forces in the south. They do have a very large 
special operating force capability. They do have intercept 
fighters that are relatively modern from the Cold War era.
    I can tell you that they don't train to the levels that our 
Air Force or Navy or certainly the Republic of Korea train. The 
levels of flying hours to be ready are about ten percent of 
what you would see in our Air Force or our Navy.
    So I am not overly concerned about the ability of the North 
Korean air force to be a factor. Having said that, it is a 
large air force. It is capable. They have got real bombs and 
real stuff, and you ought not to underestimate your opponent.
    But we can deal with the North Korean air force quickly and 
decisively, and it will cease to be a factor fairly quickly.
    Mr. Jones. General and Admiral, the reason I asked that, 
last week we had Secretary Wynne, and General Moseley was here, 
and there are many of us in Congress in both parties that are 
extremely concerned about the debt of this Nation--obviously, 
the debt of this Nation that continues to climb by the moment. 
We are borrowing money from China right now to pay for the war 
in Iraq.
    Many of us are concerned that you in the military and all 
parts of the services are probably--from time to time, we will 
be asking--you have probably already been asked--to make some 
adjustments in your priorities. Just like today, in one of the 
magazines, it says, ``White House seeks to delay joint strike 
fighter to pay for troop buildup.''
    My question was--and I guess it is a question to you as 
well. My concern is, if this Nation does not get a handle on 
this spending that is out of control--and I am not even really 
talking specifically about Iraq; I want to make that clear--
then what is going to happen ten years down the road?
    Maybe not so much concern about North Korea and their air 
force, but my question to General Moseley and also to Secretary 
Wynne was this: Right now, there is no question, we are the 
best. But if our situation with this economy goes flat, if the 
debt of this Nation cannot be dealt with adequately, then you 
are going to have to continue with your budgets to make 
adjustments that you probably don't want to make because of 
national security reasons but you are going to have to do it 
anyway.
    And the answer to me was that if this scenario with this 
debt--and let me throw back in the war in Iraq, the cost of the 
war in Iraq--that in five to ten years, if this country does 
not get a handle on the debt of this Nation, so we can give the 
military what it needs, then we might not have the supremacy 
that we have today.
    Is this of any concern--I am not asking you to get involved 
about budget debates in Washington, D.C., but those of you who 
are the professionals that those of us who have not been in the 
military look to for the very best advice--I am very concerned 
that we are getting ourselves into a situation where we might 
not be able to dig out of.
    Admiral Fallon. Congressman, I will take a shot at that.
    I would approach that by looking at myself and my 
experience and this region of the Asia-Pacific, which, as we 
look to the long term, has the potential, probably, to provide 
challenges for us.
    I look at it today as not an immediate threat. I mentioned 
that earlier in my testimony. I believe it is low threat. I 
believe we have the capabilities today to overmatch any threat 
today and for the foreseeable future.
    But of course, we are sensitive to the trends as we move 
ahead. I think that the biggest challenge is probably fiscal 
right now and over to you as experts in the financial world 
here of budgets and spending.
    But it seems to me that as we develop new capabilities--and 
I look at maritime and air as the principal items here; they 
are big-ticket items. You mentioned Joint Strike Fighter (JSF). 
These are capabilities that appear to extend our ability to 
overmatch into the future.
    The rate at which these are acquired, the efficiencies, if 
you would, of the systems acquisition of these, are probably 
the issue that would be at risk. I believe that we are okay 
today. I think that the things that are under development put 
us in what appear to be good shape for the future.
    The rate at which we acquire these things is not an 
immediate concern for a threat to me in the near future, but in 
the business and fiscal reality and good stewardship, I think 
that is the real challenge.
    So if you drag these things out--you know the history 
better than I--they cost more, they take longer and so forth. 
But the threat is, I believe, in a situation today where that 
is really not the main issue. The main issue is how much we 
spend and how early.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Taylor [presiding]. Ms. Davis of California.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    To you, Admiral Fallon and General Bell, thank you for 
being here.
    And good luck on your new mission. We wish you the best.
    General Bell, I just wanted to commend you and encourage 
you in your concern to allow families to accompany service 
members in South Korea.
    I had an experience during the Vietnam War in Japan, and I 
know how important that was to us. And certainly, to allow 
families who can go unauthorized, even for the two-year period, 
could be very helpful and really encourage a lot of families to 
do that.
    I think part of the concern, of course, is the mission that 
they have there and whether or not that is one that would work 
in that situation, and you seem to have made that assessment, 
and I certainly would encourage you to get the feedback from 
the folks there.
    General Bell. Ma'am, I would just offer also we have a 
very--you know, acronyms--we have a very good NEO plan, 
noncombatant evacuation process, so that as we look at the 
situation with the potential threat that we can evacuate not 
only our spouses and families but also American citizens and 
those who are affiliated with the United States pretty quickly 
from the Republic of Korea.
    We would do this by air. We have practiced this. It is part 
of our exercise regimen. Everybody has signed up. We have a way 
of knowing where everybody is. We are in close partnership with 
the embassy to make sure we know where the nonmilitary folks 
are.
    It is a big deal for us to be able to execute a NEO 
operation, noncombatant evacuation operation. In fact, just 
next week when I get back we are going to go through another 
NEO evacuation operation. So we do what is right to protect our 
citizens.
    But keeping them at arm's length another one year away is 
not what is right, and I want to overcome that pretty quickly. 
So I appreciate your support, ma'am.
    Ms. Davis of California. Thank you.
    And, Admiral Fallon, we know the work that you have done 
working with China and to encourage the transparency there. 
There was a recent article about the opaqueness of the defense 
budget in China.
    And I wonder if you have any additional thoughts, if you 
have given maybe a to-do list to Admiral Keating as he comes 
in, and how best to push that transparency. And is there 
something that we need to do in terms of our transparency as 
well that would encourage them to do the same?
    Admiral Fallon. I think maintaining a consistent line along 
these areas--they have a system, of course. Their system of 
government does not encourage the kind of openness that we 
enjoy here and in many countries.
    I believe that as they get exposed to what goes on in the 
outer world, they are learning, for example, in the commercial 
and economic world and the financial world that the 
requirements, if you would, of doing business in that 
environment worldwide demands that they be more open and 
transparent in things.
    The military is a tougher nut to crack. This is the long 
arm of the government. The People's Liberation Army (PLA) is 
the primary instrument of state power. My assessment is that it 
is, again, still pretty much focused on internal control and 
maintaining stability within that country.
    And there is certainly no history whatsoever of the kind of 
things that we would like to see. We have got a long way to go. 
We have got to keep chipping away at it.
    I had a very interesting discussion with the Chinese 
defense minister last year on this subject. It went on for 
quite a while. He felt very strongly, and stated so, that we 
were--it was not our business to meddle in their affairs, it 
was their business, and he gave me lots of examples of their 
intention to spend money on their people, which they have done.
    Nonetheless, we have to keep at it. And I think that by--as 
we have these exchanges, we basically push the envelope each 
time. That is what I have done. I have asked to do new things 
and see different people and more things, to try to get a 
little deeper.
    At the same time, we have tried to do the same thing here. 
There is a lot of suspicion and distrust, and it has grown up 
for a lot of years. It is going to be a challenge to dispel. I 
think we just have to keep at it, step by step, look at things.
    As you here in the Congress identify areas that you would 
like us to pursue, we would be happy to do that. So I think it 
is just a matter of just taking it a step at a time and keep 
moving. Thank you.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chairman. May I have a minute or two?
    I wanted to just ask about other perceptions in the region 
regarding our force realignment. What kind of feedback have you 
gotten from them?
    Admiral Fallon. I think this is really a good story. We 
have looked at this from a regional perspective. We have a lot 
of balls in the air. General Bell has mentioned the ongoing 
realignment on the Korean peninsula to pull back from the DMZ.
    There is another stage being set, another series of events 
in connection with the operational control of the forces and 
the future of Combined Forces Command. General Bell can address 
that.
    But as we look at events in Korea, I am also focused on 
Japan--just concluded a strategic discussion with that 
country--has agreed to solidify our alliance, which is, as you 
know, longstanding and critically important to Northeast Asia.
    An aspect of that will have us remove some of our forces 
from the southern part of Okinawa. There are many gives and 
takes here, puts and takes.
    The Japanese government has undertaken a very substantial 
financial investment of the six billion dollar range to make 
adjustments on Okinawa, to build us another air field so that 
we can move out of the congested and encroached south.
    We are going to take some Marines and move them to Guam. 
With your help, we intend to build facilities there to 
accommodate those Marines. The lay down of forces, then, would 
give us Marines on Okinawa, Guam and Hawaii, and I think that 
positions us pretty well for that force--naval forces, 
stronghold in Hawaii, Guam, in Japan. I think that distribution 
is good.
    Air Force is Guam, Kadena, Korea, Hawaii. I think we are 
pretty well laid out across the area, and we are happy with the 
progress. It is going to take a lot of years, no small 
investment----
    Mr. Taylor. Admiral, thank you, sir.
    The chair recognizes the gentleman from Arizona, Mr. 
Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Admiral Fallon and General Bell and those 
with you. I always want to remind each of you how grateful this 
country is and future generations will be to the courage and 
commitment that you have shown for human freedom.
    Having said that, Admiral Fallon, you know, I want to set 
you apart here and especially applaud you, just coming off 
commanding PACOM and, you know, it has got to be a tremendous 
personal affirmation to you, sir, to have managed the defense 
activities of roughly 60 percent of the world's population.
    And I am sure that you are going to be used greatly in the 
future, and I appreciate you very, very much.
    Having said that, to both of you, you know, there is a lot 
of people that are not in favor of missile defense in this 
country. And one of the prime arguments that they make is that 
somehow the war-fighters themselves have no need for the 
deterrent and the defense capabilities, the benefits, of 
missile defense.
    Now, I know that Mr. Saxton has already touched on this, 
but can you give us some sense of what you think the benefits 
of a robust, layered missile defense system represents, both to 
not only this country but to the war-fighters themselves?
    Admiral Fallon. Sir, I will start.
    There are threats and capabilities in the hands of 
potential adversaries that I believe we must consider, and we 
must have in our military capability package a means to 
neutralize or defeat those threats, because they could directly 
threaten our forces.
    And actually, the majority of the missile threat today is 
in the short and medium range. So these could potentially--
certainly, General Bell, I am sure, would like to talk about 
Korea. But I look at Japan within the range of North Korea.
    We look at challenges with Iran. They can't reach this 
country, but they can certainly reach our forces in the Middle 
East, for example. So it is in our interest in protecting our 
people and doing the best for them that we address these 
issues.
    And so I think it is appropriate that we continue to work 
on our sensors and our tracking and our ability to have a 
counter to these, either active or passive. I think it is the 
right thing to do.
    General Bell. Congressman, I would like to follow up. I 
can't tell you how important I think this issue of missile 
defense is to the Nation.
    I happened to be a bit under the gun back during Desert 
Storm--missile attacks every night--and saw the terror of it 
all. They weren't very accurate in those days, although 
terribly we did suffer some number of casualties from the 
interballistic missile attacks.
    But as time goes on and as mechanisms for accuracy have 
improved, these systems, whether they are theater short range, 
intermediate range, the kind that, say, from North Korea could 
reach Guam or Hawaii or whatever, or even intercontinental, 
which could reach our Nation, we have to have a layered 
approach to deal with these, both defensive and, I might add, 
offensive. They have got to come from somewhere, and we ought 
to be able to do something about that as well.
    So as we move into the 21st century, deep into the 21st 
century, this is going to be a growing issue. We have said for 
decades that some day rogue states will have the ability to 
launch a few missiles at us. And, sir, we are looking at that 
almost today. I wouldn't say that necessarily the United States 
is threatened today, but certainly U.S. troops are threatened 
today. I have got 800 of these missiles pointed at U.S. troops 
right now in South Korea.
    So I would support vigorously a robust approach to theater 
ballistic missile defense, layered defense, intercontinental 
ballistic--it is a very important part of the total approach to 
this very serious problem.
    Mr. Franks. Well, it is hard to really add a whole lot to 
that, General. I mean, your answer, I think, obviously not only 
reflects my own perspective but I think one that the whole 
country needs to understand.
    There is a sense that we already have missile defense in 
this country. And as you know, we are not there yet. And I am 
very concerned. In a world where nuclear weapons are not only 
prevalent, they are becoming ubiquitous.
    And it just seems to me--and I would ask your response--is 
it not important that we not only support full funding of the 
current missile defense systems but that we, if anything, work 
toward even more ground-based interceptors for the sake of 
protecting this Nation against the very potential that you 
mentioned--you know, a robust--I mean, like a rogue state doing 
something that, you know, is almost unthinkable.
    I suppose if that ever occurs, this debate would change 
pretty profoundly. But you know, I often steal the quote that, 
``If we build it, they will not come.''
    And given our situation in the world, is it not important 
to the defense of this country to have those systems and 
support the existing funding?
    I am out of time.
    Mr. Taylor. Ten words or less, Admiral.
    Admiral Fallon. It is important that we be able to counter 
these capabilities. The rate and amount of which the funding is 
something that you will have to deal with up here, sir.
    Mr. Franks. Thank you.
    Mr. Taylor. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral Fallon, thanks for your service. Good to see you a 
couple months ago in Hawaii.
    A quick question first on military-to-military. Can you 
just give the committee some perspective on the number of 
exchanges with China in 2006 versus the number that we plan in 
2007?
    Admiral Fallon. There is a small increase in 2007. There is 
a structural challenge here that I would highlight, and that is 
that within the PRC they are organized to have one office in 
Beijing deal with the entire range of mil-to-mil interaction.
    And that makes life very challenging, because the hours in 
the day and the speed with which they deal with things severely 
constrains this.
    So with other countries, other relationships, this is all 
spread out and delegated to different levels. It doesn't happen 
yet in the PRC, so there is an annual discussion between the 
Office of the Secretary of Defense (OSD) and their counterparts 
in the PRC that set up this agenda, but it is not vastly 
increased from the previous year.
    Mr. Larsen. All right. But you did say Admiral Keating is 
being briefed and we can expect Admiral Keating--we can ask him 
ourselves, I suppose, at some point. We can expect Admiral 
Keating to continue the mil-to-mil efforts?
    Admiral Fallon. I would encourage you to ask Admiral 
Keating. From my perspective, I have certainly encouraged this 
and indicated to him that----
    Mr. Larsen. Got it. All right. Last summer, a few of us met 
with General Guo, and he tried to make a case to us for 
proposed changes to the fiscal year 2000 NDAA mil-to-mil 
restrictions, and we let him know that he was wearing a 
uniform, and if he needed to make a case for that, he needed to 
talk to our folks wearing uniforms, that we would take the best 
advice from our uniformed folks.
    Based on your testimony at page 19, you seemed to indicate 
thought there may have been some steps that--in transparency 
and reciprocity, there have not been enough steps for you or 
others to make any sort of recommended changes to those 
restrictions. Would that be accurate?
    Admiral Fallon. I would say that today we have been able to 
do the range of engagements that we think are appropriate, that 
are doable within the constraints of the 2000 NDAA. If we get 
to the point where we see an opportunity to move this thing 
forward, I would be happy to propose that to OSD and then take 
it over here, you know, with their permission.
    Mr. Larsen. Yes. I think it is an important message for us 
but also an important message for our Chinese counterparts to 
hear, that perhaps they need to take more steps than they have.
    As well, we had a chance to talk to General Cao when we 
were there, the defense minister. We pushed him to invite the 
United States to observer status to the next Chinese-Russian 
exercises, and we were very politely offered tea, I think would 
be a nice way to put it.
    But I would just ask, would you continue to encourage us to 
push China to invite the U.S. at least to observer status to 
any further China-Russian exercises?
    Admiral Fallon. Oh, sure. I think it is another step in the 
move to greater transparency. I would personally much rather 
actually engage in things than just watching, but you have got 
to start somewhere, and----
    Mr. Larsen. One step at a time.
    Admiral Fallon [continuing]. That would be a good step in 
the right direction.
    Mr. Larsen. And then two quick things here. Actually, it 
was last month, another high-ranking official was in town from 
China to have a discussion about a few things, and we had a 
chance to meet with him.
    I guess my impression is that he did not seem to fully 
appreciate the impact of the anti-satellite weapon (ASAT) test 
on the U.S. or on the rest of the world. And he, in fact, went 
so far as to call our concerns about space debris baseless, as 
it was interpreted to us, that is, I should point out.
    We took the opportunity at that point to explain to him, at 
least from our perspective, more about space debris, and he may 
want to go back to the people he was talking to and see if they 
need to reassess their evaluation of the impact of space 
debris.
    How would you characterize the Chinese response to the 
world's response to their ASAT test? And have you seen any 
changes in it in the last month?
    Admiral Fallon. I think this demonstrates that there is a 
long way to go, not at all to denigrate China and her progress 
in becoming a significantly contributing member of the world 
body here.
    But the response to this seemed to me a little bit of Mutt 
and Jeff, right hand, left hand, who knew what about whatever 
seemed to me an issue. It didn't seem very sophisticated or 
demonstrate the kind of understanding that might be appropriate 
here.
    So they have taken steps to get more in tune with the kind 
of things that most of the other countries in the world do, and 
it indicates there is still some work to do here.
    Mr. Larsen. Okay. Thank you. Thank you, Admiral and 
General, for coming to help us out today.
    Mr. Taylor. Mr. Conaway of Texas.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, welcome. Thank you for being here.
    General Bell, I wasn't here during your oral presentation, 
and you may have already covered all this, but if you wouldn't 
mind walking us through the realignment strategies as well as 
the wartime transfer, wartime control, operational control and 
the impact that the ROK's burden-sharing with us. I think your 
testimony said that it is 41 percent getting to 50 percent. 
Just kind of a general step-through.
    We have a chart that shows a significant reduction under 
something labeled ``future'' of presence in South Korea, so if 
you could walk us through that, I would appreciate it.
    General Bell. Thank you very much, Congressman. I will do 
it real quick. You know, normally it would take two hours or 
three hours, and I am not sure I would do it correctly.
    But there are a couple of building blocks. One is that we 
are at 54 years after this war ended. And instead of a 
deprived, war-ravaged country, the Republic of Korea is a first 
country world economic power and a major military power, and a 
great ally of the United States, and a committed ally of the 
United States.
    I mean, these are overarching realities. They fought with 
us in Vietnam. They deployed to Desert Storm. They are in 
Operation Iraqi Freedom (OIF) and they are in Operation 
Enduring Freedom (OEF). They are just dispatching nearly 400 
service members to southern Lebanon to help stabilize that area 
of the world.
    So they are helping us enormously, and this alliance is 
important to the United States, not the least of which is 25 
percent of world trade flows through Northeast Asia. So the 
management of this alliance is something that is vital to both 
us and the Republic of Korea.
    Now, given the current situation, the old-line command and 
control relationships that came out of the Korean War just 
don't make sense for today. Here we are with this great capable 
country, and somehow when war breaks out, I am supposed to 
command their army. It makes no sense.
    I want to command our army. We are not going to give up 
command and control of U.S. forces ever. That is not going to 
happen. But we ought to move into what we call doctrinally a 
supporting to supported relationship, working in partnership 
with the Republic of Korea in combat in a way that makes sense 
operationally.
    And we know how to do that, so we have agree to move to 
that new paradigm in the year 2012. We are excited about it. It 
makes sense. It gives them a better sense of their sovereignty 
and self-reliance on themselves while solidifying the alliance 
into the 21st century. So that is one.
    Two, realigning on the peninsula makes sense. Part of it is 
because they want us to move out of Seoul. We have got a lot of 
acreage in downtown Seoul that is valuable to them.
    Plus, to be honest with you, sir, it is a symbol of a 
bygone era of occupation--not the United States occupying, but 
other occupiers--and a less visible profile by military forces 
in the capital city of the Republic of Korea would benefit both 
nations.
    So we have all agreed--and they have agreed to fund that. 
They are going to spend billions and billions of dollars 
helping us move. They are going to shoulder the majority of the 
burden of doing this. Now, that is going to happen. That is all 
agreed to.
    The other piece that we are not fully there yet on is 
annual burden-sharing. We have asked our ally to shoulder what 
we call an equitable amount of the annual stationing costs, 
non-personnel--in other words, not my salary, but the 
logistics, the maintenance, some of our building programs, et 
cetera.
    And we think equitable is 50-50, so if it costs me $2 of 
appropriated funds to station forces in Korea, they ought to 
pay $1. That is the philosophy. In the negotiations over the 
past several years, we have not approached that number with our 
ally.
    Last year, they covered about 38 percent of our non-
personnel stationing costs, and we feel that that number is 
below the expectation of equality and equity.
    This year, the year that we are in, they have agreed to 
fund 41 percent. So that is an improvement. I will tell you, we 
have to continue to negotiate with our ally until a point comes 
where we believe it is fully equitable and that they are 
sharing the costs in a way that makes sense to us to give us 
the rationale that we need to stay over there.
    Yes, sir.
    Mr. Conaway. In the time left, could you talk about why it 
takes up to 2012 to shift operational control?
    General Bell. Yes, sir. Well, first, there are some real 
issues. We need to train repeatedly in a new doctrinal way so 
that we are certain that should war break out that this will 
work to standards.
    You just can't decide one afternoon--I know you appreciate 
this--that they will be in the lead and we will be in the 
supporting role. We have to go through an extensive 
headquarters realignment process. Then we have to organize 
ourselves. And then we have to train, sir.
    I have estimated it would take three years to train in a 
cyclical way so that we have great confidence that we could 
successfully deter an attack and, if an attack came, defeat it. 
So I need three years. Well, this is 2007, so that is, minimum, 
2010.
    And in negotiations, they asked for a little bit longer, 
because there are some things they want to buy before we do 
this, and so we have agreed to 2012. I think that is 
reasonable--a little bit later than I would have preferred, but 
we have got a date. It makes sense to everybody, and everyone 
is happy with it.
    Mr. Conaway. Thank you, Mr. Chairman.
    General Bell. Thank you, sir.
    Mr. Taylor. Thank you, General.
    The chair recognizes the gentleman from Connecticut, Mr. 
Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And I want to thank Admiral Fallon and General Bell for 
your service and your testimony today.
    And we wish you, again, all the best wishes we can with 
your new posting, Admiral Fallon.
    I wanted to follow up on your testimony regarding your 
reassuring words that the threat where you have been in command 
is something that you feel confident in and that we have under 
control.
    And looking at the staff reports and your testimony, I 
mean, obviously, I think we have that confidence today because 
of the size of our fleet and that we are able to sort of meet 
the projections that the Quadrennial Defense Review set forth 
in terms of our surface ships and submarine fleet.
    But obviously, it is not a static situation today because 
you are moving a number of submarines over to the Pacific by 
2010. According to the staff notes, there will be 31 submarines 
that are there. And again, with the existing size of the fleet 
today, that is obviously a number that falls within an 
acceptable plan.
    I guess the question is, though--and I am learning this 
quickly here--is that the decisions we are making in the 
Congress today are not about today; they are about a long time 
down the road. And the fleet that you are using today is one 
that was built 20 years ago.
    And clearly, with the President's budget and the number of 
ships and submarines that are included in it, looking down that 
road 20 years hence, I mean, you just try and do the math and 
see how we are going to maintain 31 submarines in the Pacific 
when the fleet shrinks some time in the 2020's down to 40 
submarines.
    I mean, do you have any concern about whether or not the 
sort of confidence level that you have here today is really, 15 
years, 20 years down the road, going to be something that we 
can feel without any concern?
    Admiral Fallon. Congressman, in my view, we weigh off 
risks. We look at the realities we face today. We have got a 
war in the Middle East that requires an enormous amount of 
money and other resources. This is primarily land, and so we 
have put the spending in that direction.
    I believe we are quite capable of meeting any requirements 
in the Asia-Pacific and in other places in the world today with 
our existing force structure.
    Now, we have on the books new classes of ships, for 
example, in the areas in which you have high interest, I 
believe, that are very capable, we think, at looking to the 
future to meet future threats.
    Now, the numbers of those today appear adequate to today's 
threats. If that changes in the future, the fact that we do 
have these newer classes--maybe not in the numbers that you 
might like to give you higher confidence, but enough confidence 
today.
    The ability to have those and to crank up those building 
programs if required in the future, I believe, is a reasonable 
hedge against where we are. And so you make these tradeoffs.
    The key thing is that we continue to make investments to 
have capabilities that we could then expand rapidly if we need 
them in the future.
    Mr. Courtney. And I appreciate that answer. I mean, that is 
helpful. I mean, as I said, though, I mean, obviously, we are 
not always dealing in a static situation right now. And 
certainly, one of the things that is not static is the rate of 
increase in the Chinese navy.
    And you started to address, I think, Congresswoman Castor's 
question on that issue, and, I mean, what is going on?
    Admiral Fallon. The big picture, I believe, is that this is 
a country that was focused inwardly, is now looking externally, 
because it has a much greater global interest.
    It requires huge amounts of energy resources and other raw 
materials to continue to drive this economic engine. And it 
realizes that these things are not inside the borders, that 
they are under other folks' control.
    There is another dynamic, and that is this huge amount of 
cash that they are getting courtesy of our investments in their 
products, and I would expect that it shouldn't be a shock that 
they would invest a substantial amount in their military, since 
it is decidedly not modern.
    They are working on lots of new things, and new classes of 
ships are one. We are watching this closely. These are a 
concern. We would like to have them work in concert with us to 
look at a future in which they are helping to provide security 
and stability, versus the flip side of that.
    So we watch it carefully. We look to make sure that we have 
an ability to counter any threat that could turn against us. 
And we continue to encourage them to work with us as we move to 
the future.
    Mr. Courtney. Well, that is obviously the goal which we all 
want to see happen. I mean, one of--the unfortunate thing is 
their cash position has been strengthened by our debt 
financing, which Congressman Jones talked about, and that is 
obviously something we have to address here.
    Mr. Taylor. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Mr. Taylor. The chair recognizes the gentleman from 
Georgia, Mr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    Admiral Fallon, it was great to see you recently at PACOM 
with CODEL Bartlett, Bordallo, et al. We enjoyed that very 
much.
    General Bell, we didn't quite make it to Korea. We just ran 
out of time in that five-day trip.
    Thank you both for your great service to the country.
    There have been some questions already concerning what the 
plans are in regard to Korea. General Bell, you addressed that. 
Also, the plans in regard to Japan; and we discussed that at 
length with Admiral Fallon when we met several months ago in 
theater.
    My question for both of you, though, is: We get a lot of 
concerns expressed about things--assets, men and equipment--
being diverted to Central Command. And of course, Admiral 
Fallon, you will be there soon in charge of that operation, 
Iraqi and Enduring Freedom. And what has the cost been in 
regards to transferring assets?
    And I would specifically ask how has that affected the 
Pacific Command and, of course, General Bell, your area of 
operation in particular. I know maybe 3,000 or 4,000 troops 
have been transferred maybe one and a half years ago, two years 
ago, from Korea of the 37,000 we had to Operation Iraqi 
Freedom.
    You have an area of responsibility, as you point out to 
us--300,000 personnel, 51 percent of the Earth's surface--
granted, a lot of it is water, but it is 60 percent of the 
world's population. And how many countries--you really have a 
tremendous area of responsibility.
    Tell us the effects of any transfers that have had to 
occur.
    Admiral Fallon. Yes, sir. The fact that there is a lot of 
water and a lot of air, maritime-air-centric--those forces have 
not been nearly as impacted by the combat operations in the 
Middle East as our ground forces.
    So we retain substantial capability, we think quite capable 
of meeting any challenge in the foreseeable future. And in 
fact, we have been adding to that capability.
    The example I would illustrate is the recent deployment 
of--the first F-22 deployment out of the United States 
currently ongoing in the western Pacific--a tremendous 
capability with these aircraft. Upgrades to our ships and so 
forth--and so we are in good shape on that side.
    We are watching, as General Bell indicated earlier--
watching closely the impact of things like prepositioned 
material, land-oriented, land-centric things. General Bell 
would be happy, I am sure, to address the situation on the 
peninsula.
    But from the rest of the Pacific, I think we are in good 
shape. The risk is acceptable based on my perception of the 
threats or potential threats that we face. And we are going to 
watch it closely.
    And I guess in my new responsibilities, I will have to 
explain to my counterparts why we need all these things and 
make sure we use them. But over to General Bell.
    General Bell. Thank you, Congressman.
    You know, when I go to bed at night, I think about a lot of 
things. One of them is what if at midnight tonight I get a call 
and say, ``Well, it just didn't work, there is an attack going 
on,'' because the North Koreans are positioned where, if they 
chose to, they could have a very short-notice attack.
    We don't anticipate that, and we are very hopeful for the 
future, but they could. And what does that mean about the 
United States' ability to reinforce Korea and other places in 
the Pacific? And how is that affected by ongoing operations in 
Iraq, Afghanistan and other commitments in the world?
    And you know, it is a daunting challenge for our military. 
We are committed heavily in that area of the world. I go back, 
however, to my earlier comments that I am extremely confident 
in the Republic of Korea military.
    I can tell you, sir, I have been in this business a long 
time, and I have looked at a lot of militaries around the 
world. In fact, it may be most of them. Like Admiral Fallon, 
being dinosaurs as we are, we have been around for a while.
    And this is one good military capability that the Republic 
of Korea has. This is something to celebrate, a success for a 
partnership, an alliance partnership over a long period of 
time, that moved the country from a war-torn, third world, 
poverty-stricken disaster to one of the great countries of the 
world today.
    And the United States can take a great deal of credit for 
that. Certainly, the Republic of Korea citizenry can take a lot 
of credit because they picked themselves up by their bootstraps 
and have done what they have done. It is a marvelous example of 
what we are trying to accomplish elsewhere in the world.
    Having said that, the air and naval power that is made 
available to me in the Pacific region is adequate to meet our 
war needs. If we needed ground forces, we would be challenged 
right now.
    But my assessments and war gaming are that we have the 
forces available in concert, in partnership, with the Republic 
of Korea to do what we need to do on the Korean peninsula.
    Dr. Gingrey. Thank you, General.
    Mr. Taylor. The chair recognizes Admiral Sestak.
    Mr. Sestak. Admiral, General, thanks for the time.
    The question that was just asked--a few years ago there was 
a redoing of a series of war plans, including yours, General--
much more reliance upon air power.
    Is the result of your confidence--or because of that, is 
that why you feel confident in what you said about that we can 
handle this contingency despite Iraq because of that change to 
the focus upon air power?
    General Bell. I could tell you from a career perspective, 
most of my optimism about our deterrence capability and our 
ability to fight rests with the continuing improvement of the 
Republic of Korea military. We are an alliance.
    I do today command the Republic of Korea military in war 
time, and so I am deeply engaged with Korean military leaders 
every day, and we train with them every day. So a lot of this 
is, again, a success story. We are in partnership.
    And not to forget, we still have our United Nations 
command, which I command----
    Mr. Sestak. Yes, sir, but I guess my question is--my 
understanding is the reliance upon air power and that we have 
those forces ready--and so my question is do you have--have we 
filled that request out for the types of munitions that should 
be used by the air power for the hard and deeply buried target 
(HDBT) and the others?
    How does that stack up to the change in the war plans of a 
few years ago? Have you been able to get that enormous request 
that you wanted filled?
    General Bell. No doubt that the air power that we can bring 
to bear today is radically different than what it was 20 years 
ago, most of it a function of precision munitions and standoff 
capability of the aircraft, so that they don't have to----
    Mr. Sestak. Have you been able to get the munitions that 
that war plane called for?
    General Bell. We have the munitions that we need for a 
number of days. I wouldn't go beyond that in this session. I 
will tell you that beyond a number of days, if those kinds of 
munitions were still required, we would have to bring them 
forward from the states, and the supplies that we need would 
have to be refurbished.
    And so I am not totally comfortable with the aerial 
munitions----
    Mr. Sestak. Has your request been filled, then, for your 
request for munitions?
    General Bell. I am sorry, sir?
    Mr. Sestak. Has that request that you have submitted----
    General Bell. Yes, it is part----
    Mr. Sestak [continuing]. Has that been filled?
    General Bell [continuing]. Of my integrated priority list, 
and the Department of Defense is quite aware of how I see these 
requirements. Yes, sir.
    Mr. Sestak. So it has not been met.
    General Bell. If we have a war and it goes the way I expect 
it to--and again, be careful of expectations, because the enemy 
gets a vote--I am confident we have the munitions now that we 
need.
    Mr. Sestak. A couple days. So my next question is if it is 
good enough for a couple days, and this is a sudden war--30 
miles from Seoul to the DMZ--the readiness of our National 
Guard is what it is, and the readiness of Army is what it is.
    What is it after a couple days if things don't go and you 
run out of these munitions? Is that a more major concern in 
view of Iraq and what it has upon the hold of our and the 
status of our Army and where they are, if a few days is 
important?
    General Bell. The Republic of Korea has 500,000 men under 
arms today fundamentally capable of defending their capital. 
They are active duty. They have a three-million-man reserve.
    Mr. Sestak. Would it be unfair to say, then, that once the 
war is over that those forces that you normally had in the war 
plan aren't going to be needed any longer because of this 
confidence you have?
    General Bell. I believe we are at a point with the Republic 
of Korea, as we change our command relationships, where we are 
going to review the allocation of U.S. forces against the enemy 
as we know it and given the capability of the Republic of Korea 
military. So we will change.
    Mr. Sestak. The reason I am asking is we are about to 
increase the Army by 92,000 troops, as well as the Marine 
Corps. But if you are saying those forces really aren't needed 
because the Air Force can handle it, and we have such great 
reliance upon the ROK, are those 92,000 troops then needed?
    Because this is one of the two major contingencies for 
ground forces we plan upon.
    General Bell. I think those forces are exceptionally 
needed, and even more potentially. United States' worldwide 
interests are not just against postulated war plans. There are 
many threats to our interests worldwide that would require the 
allocation of ground forces, not only North Korea.
    So I am absolutely supportive of that increase and think it 
may not be quite enough.
    Mr. Sestak. Thank you.
    Admiral, could I ask a question? Since 1996, China--ever 
since that time that we had the missiles rain down either side 
of Taiwan, and we deployed Aegis cruisers there, every year 
since then, they have done an exercise--not before, but ever 
since then--of increasing breadth and increasing depth, not 
dissimilar, some say, to 1967 after the Israeli war, the 
Egyptians did, leading to the 1973--out of an exercise, a 
sudden thrust.
    How do you plan on--I mean, is that a concern of ours? Do 
we actually deploy extra forces out there during those periods 
of time of the exercises?
    Admiral Fallon. We certainly watch the activity of the PRC. 
And I think, Congressman, that the reality today is that we 
would expect to see the Chinese increase their exercise program 
as they grow their capabilities and the means to fund those, 
and they recognize a need to step up from the level at which 
they had been operating.
    Without going into the details, which we could certainly do 
in a closed hearing if you wanted to pursue the inner workings 
of the contingency plans, we watch and adjust our activities, I 
think, appropriately in the face of what we see as potential 
threats.
    Mr. Taylor. Admirals, we are going to have to cut you all 
off.
    The chair recognizes the gentleman from South Carolina, Mr. 
Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Admiral and General, for your service. I 
have had the privilege of visiting with your troops in Hawaii, 
strategically important Guam, and Korea. And every time I have 
visited, I have been so impressed by the young people 
protecting our country.
    And, Admiral Fallon, I have been particularly pleased as 
the co-chairman of the India Caucus, the developing strategic 
relationship and alliance that we have with India. And the 
three of us are about the same age; we have seen India evolve 
from a virtual enemy state to one of our greatest allies.
    Could you review for us the military exercises, other 
indications of military cooperation?
    Admiral Fallon. Yes, sir, I would be happy to.
    India is one of the bright spots, I think, in the region--
significant change in focus and direction of our relationship 
with the two.
    I have been a couple times to meet with the Indian leaders, 
and I sense a similar sharing of desire to move us forward. 
There have been a number of exercises, increasing in 
complexity, over the last couple of years, and the plans are to 
continue in the same direction.
    There is a naval exercise, Malabar, that has been going on. 
That included aircraft carriers this past year. There are land 
exercises, small but growing. Indian forces have been to the 
U.S., to Hawaii, and the mainland a couple of times this year.
    We will continue these as it makes sense and as we find 
fiscally appropriate. But there is little doubt in my mind this 
direction is improving.
    There is another dimension here that is very significant. 
For the first time that I can remember, the Indians have 
actually made an acquisition of U.S. hardware, and that is the 
ex-USS Trenton, one of our expeditionary ships, which is in the 
process of being transferred to the Indian navy and, along with 
that, a purchase of some helicopters to help outfit it.
    This is a first. It is kind of a landmark, a watershed 
event. There is a lot of interest in future development--a lot 
of concern, I will tell you, in India, historic anxiety, I 
think, about this because there isn't any track record. They 
have been getting most of their stuff for decades from the 
Russians, from the old Soviet empire.
    And so this is a new thing for them. They are kind of 
looking for us to see how we treat them and how we react. I 
think it is an opportunity for us to be more interoperable. 
That is one of the things we have discovered as we have done 
these exercises.
    Since they are using equipment from different places, there 
is some challenges here, and we could make this better in the 
future. So lots of opportunities, is what I would say.
    Mr. Wilson. Another indication of cooperation is the U.S.-
India civilian nuclear argument. I believe this promotes 
nonproliferation because India now will separate its military 
and civilian nuclear programs.
    Have you been working with their government in regard to 
that?
    Admiral Fallon. I think it is a very significant strategic 
step forward to gain the confidence of the Indian people that 
we in the U.S. highly value a relationship with this country. 
And the potential for other things is great.
    It is a huge country, more than a billion people, strategic 
location. And as I face my new challenges in the Middle East, I 
am very sensitive of the fact that India has a lot of interest 
in the same area. And there may be some possibilities here that 
would be helpful in this new region, too.
    Mr. Wilson. Another success story has been the Republic of 
Mongolia. It is extraordinary to me--again, people our age 
would think of that as a totalitarian state, which now is a 
free-market democracy, a nation that has sent troops to work 
with the coalition forces in Iraq and Afghanistan.
    Have you worked with the military of Mongolia?
    Admiral Fallon. Yes, sir, Congressman. This is a really 
good success story. It is a small country in number of people, 
two million people, but very large, covers a big area, 
strategically between Russia and China, so interesting 
challenges.
    But they have chosen to, as you say, opt for a democratic 
process. They have a very small military. They are interested 
in helping out in areas that make a lot of sense, like 
peacekeeping.
    They don't see a big threat to themselves externally, and 
so they are taking their relatively small military and training 
it, and we are helping them to train them to do things for the 
U.N., for example, in a peacekeeping role.
    They are in Iraq. They have got over 100 troops there. They 
have been there for several years now, giving us great support. 
And we are working with them. We have a good exercise program.
    And in fact, this summer they have volunteered to host an 
exercise called Conquest, which is primarily a peacekeeping 
reinforcement drill which will involve a lot of countries. So 
it is a really good news story.
    Mr. Wilson. Thank you very much.
    Mr. Taylor. The chair recognizes the gentlewoman from Guam, 
Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And again, it is nice to see you, Admiral Fallon. You are a 
very good friend of the Pacific area, and of course, General 
Bell as well. I thank you both for your testimony today, and 
also thank you, Admiral, for your service as commander of the 
United States Pacific Command.
    The Pacific Command area of responsibility has been very 
challenging lately, and you have displayed exemplary ability to 
manage and address the challenges that confront our national 
security interests in the region. Our military posture in the 
region is much stronger because of your leadership.
    And last, I want to thank you for your work to support the 
negotiation of the bilateral agreement between the United 
States and Japan to realign the forces in the Pacific Rim, 
including the relocation of U.S. Marines from Okinawa to Guam. 
I think some of my colleagues have alluded to this, and you 
spoke briefly to it earlier.
    Can you please describe your thoughts on how this agreement 
has and will strengthen the diplomatic and the national 
security relationship the United States enjoys with the 
government of Guam or the government of Japan?
    And can you provide for this committee where you believe 
the agreement is at this time? I understand that the Japanese 
diet has yet to approve the funding for this project.
    And I would just like to get your idea of where we are 
today, if you could help us with that.
    Admiral Fallon. Sure, Congresswoman. Thank you.
    First of all, at the high level, it is a very strong 
reaffirmation of the strategic alignment of our two countries 
to provide for mutual support in Northeast Asia and in the 
north Pacific region.
    The longstanding security commitment that we have to 
Japan--and that reaffirmation is very valuable, I think, as a 
signal to the people not only of the region but particularly in 
both countries.
    The details of this go along several lines. First, to 
upgrade the interaction between our forces. We have been in 
Japan with bases and forces. We have done exercises.
    But the amount of integration of the forces, operational 
activities together, has not been as great as I might have 
expected prior to getting into this job. That is increasing, 
and that is really good. I could give you examples in missile 
defense cooperation and air defense cooperation in Japan, 
Japanese home islands, as examples.
    Regarding the force structure of our Marines particularly, 
as we look at the future and assess the optimum location of our 
forces, as you are well aware, Guam plays a large role in our 
plans. We have been there before. Things ebb and flow. But we 
see the strategic value of Guam.
    And most importantly, it is U.S. territory. It is a place 
where we have the freedom of action for our own people, with 
and by our own people, to be able to do the things we think are 
necessary without having to go to get international agreements. 
That is a tremendous advantage.
    There are some other issues, too. You know there has been a 
lot of discontent, particularly in southern Okinawa, about our 
presence there. We have been there for many decades, but as the 
Japanese population of Okinawa has increased, encroachment has 
grown around these facilities, and as we have seen in many 
places of the world, it has become a problem.
    So part of this arrangement will be to move a lot of our 
forces out of that area that is heavily congested and put them 
in other places, Guam being one.
    The specifics of the funding are that the diet has not yet 
passed the resolutions to provide for the funding. There has 
been a visit by a Japanese diet delegation very recently to 
Guam to get their assessment. I assume that is----
    Ms. Bordallo. And there will be in the future.
    Admiral Fallon [continuing]. That is a precursor to their 
movement forward of their diet.
    The prime minister, Mr. Abe, has stated his firm commitment 
to make sure this happens. So I think things are in place. 
Planning is under way. They are getting a sense of what needs 
to be done and how much. And I expect this will go forward. I 
have high confidence this is going to go forward.
    Ms. Bordallo. So there would be no chance, then, of anybody 
reneging on the agreement.
    Admiral Fallon. I think the chance of that is very, very 
small indeed, because----
    Ms. Bordallo. Thank you, Admiral, and----
    Admiral Fallon [continuing]. It is in the interest of both 
countries.
    Ms. Bordallo [continuing]. I want to thank you again for 
your services as commander of the Pacific Command and, of 
course, to congratulate you on your new command. Thank you.
    Thank you, Mr. Chairman.
    Mr. Taylor. The chair recognizes the gentleman from North 
Carolina, Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service to our country.
    Admiral Fallon, I wanted to ask you, or you, General Bell--
but if you could tell me--there were unconfirmed reports 
recently of the Russians selling missiles to Iran. Do you have 
any knowledge of this?
    Admiral Fallon. I don't have any detail. I will probably be 
focused on that pretty intently very soon.
    Mr. McIntyre. And, General, do you have any knowledge of 
this?
    General Bell. I do not, Congressman. I have read these 
reports but I have not looked into it personally.
    Mr. McIntyre. All right. Is this something each of you, 
then, are willing to follow up on to see if they are confirmed 
and how that may affect our interest? Each of you would be 
willing to make that commitment, is that correct?
    You will, General?
    And, Admiral, you said you will be following up on your new 
position, is that correct? All right.
    Admiral Fallon. I will check that, and I will be back here 
next month. I would be happy to answer.
    [The information referred to can be found in the Appendix 
beginning on page 133.]
    Mr. McIntyre. Thank you, sir. We obviously would have great 
concern and interest in that.
    Also, I understand Russians are selling submarines to the 
Iranian navy and to the Chinese navy. What do you know about 
that? And is this a concern?
    Admiral Fallon. The Russians have sold--and this is not 
new--three Kilo class, as we call them, submarines to the 
Iranians, and several of these to the Chinese. There is a buy 
that is in progress now.
    It is a concern, of course, to see the proliferation of 
these systems. They are diesel submarines. They are different 
than ours. They are generally short range and would be used, I 
believe, in close-in coastal waters. But clearly, we prefer 
that these kind of things not be proliferated around the world.
    We will keep an eye on them and make sure that we are doing 
diligence here to ensure we have the capability to operate and 
detect and deal with these things if we ever have to.
    Mr. McIntyre. Thank you, sir.
    I know earlier in my absence--and I apologize, I had to 
step out for another commitment and came back. But there was a 
question, I believe, asked about the Chinese navy. And is there 
any focus at all and concern with regard to the buildup of the 
Chinese navy and our sense of readiness or dealing with their 
strategy, their strategic forces?
    Admiral Fallon. Sure. In the maritime area, we watch very 
closely the Pacific fleet and its commander and structure, keep 
an eye on this. They are growing in capability and numbers and 
modern upgrades to their fleet. We watch it very closely.
    Again, we are trying to get the Chinese to engage with us 
so that we have a better understanding of where they are going 
and what they are up to. One of my priorities is to push for an 
agreement in expectations in areas at sea and in the air, when 
we will get in close proximity to one another.
    You recall that back in 2001 we had this collision between 
the Chinese fighter and one of our P-3 reconnaissance aircraft.
    Mr. McIntyre. Yes, sir.
    Admiral Fallon. I would like to have that not happen again. 
And I think one of the ways to do that is to set in place a 
structure of expected activity should our forces engage.
    We got a start on that this year in the maritime domain. 
That exercise also did include aircraft. And we will continue 
to push this area.
    Mr. McIntyre. All right. And another question on--the 
Russians, I know, also are apparently selling the Su-30 jet 
fighters to the Chinese. Is this a concern? Is this something 
you are monitoring?
    Admiral Fallon. Again, more modern equipment--the question 
is what are they going to use it for. The Chinese are also 
developing their own indigenous programs. I got a chance to see 
one of those aircraft when I was in China last year.
    They have also had a joint development program with the 
Pakistanis. Again, what we would like to do is to get the 
Chinese to engage with us so we can convince them that it is in 
the interest of both countries that we work together and be 
very transparent and open with what we do.
    I think the Russians are selling these things not just to 
China but other countries of the world because there is a 
lucrative market for them. It is a way for them to get cash 
into their economy. And it is one of the few capabilities that 
is actually available to them in the export markets.
    Mr. McIntyre. Thank you, sir.
    Mr. Chairman, I think we did that within our time.
    I appreciate you gentlemen's answers and your service.
    Mr. Taylor. Thank you.
    Admiral, I am curious. I have concerns that this Congress 
has not been made fully aware of the total cost of the war in 
Iraq. For example, the equipment needs of the National Guard 
and reserve come to mind.
    And so I was wondering, within your Pacific Command, what 
sort of needs have arisen as a result of the effort in Iraq and 
Afghanistan? What sort of equipment shortages do you have that 
need to be addressed?
    And that would sure also go to General Bell, but I will 
start with you, Admiral.
    Admiral Fallon. Congressman, no major needs that are being 
unfilled.
    As I review our desirements, if you would, to put into the 
system in terms of needs out here, all of my priority items are 
very specific operational things that--some are classified, but 
they are designed to make sure that we have capabilities to 
deal with things that we think might be a problem in the 
potential for conflict later on.
    I don't really have any significant unfunded or unmet 
equipment needs right now.
    Mr. Taylor. Well, let me be specific. Do you have no need 
for engineering equipment? Do you have no need for generators? 
Do you have no need for tents? Let's go down the list.
    Admiral Fallon. I am sure that there are things that our 
Army forces in the Pacific and the Marines out there would love 
to have. But I believe that we have the equipment that we need 
today to respond to any contingencies we have.
    I guess in my dealing with the things that I believe we 
have to face, recognizing that we have a war on and that the 
priority for our people and our equipment is right now in the 
Middle East, I have been taking as acceptable risk some of the 
things that are maybe not immediately available, with the 
expectation that if something changes and there is a threat in 
the Pacific that appears to be an overriding concern, that we 
would get back or ask to get back some of these things.
    The biggest problem I see is the rotation of our forces, 
the fact that you have people that go out. They use their 
equipment. It needs to be repaired and maintained. Some things 
are used up and not replaced.
    And the fact that these forces then are put into rotation 
and they are going to be called on in short order--I think if 
we needed to do something right now, we could muster the 
appropriate materiel and do that.
    Of course, we would like to have new things. We would like 
to have things replaced. One of the things we haven't done is 
put a big demand system on the Army in particular for immediate 
fill of some of this equipment that they have borrowed, if you 
would, out of prepo and other places to go to the war, knowing 
that the stuff that we would like to have back is probably 
upgraded things, newer materials.
    The fact that the Humvees we have are not the up-armored--
and so instead of demanding that we replace all these things 
now, we have agreed to defer these until such time as we can 
get the newer equipment.
    Mr. Taylor. Okay. For the record, I would be curious, since 
I am convinced that we are going to need to replace every 
Humvee in any potential combat zone with something like an Mine 
Resistant Ambush Protected (MRAP) vehicle, for the record, I 
would like to know how many Humvees are in Korea.
    [The information referred to is classified and retained in 
the committee files.]
    General Bell. How many are what to Korea, sir?
    Mr. Taylor. In Korea, in South Korea.
    General Bell. Well, I can tell you how many--well, I have 
to be careful here on classification. But I can tell you that 
the Humvees that we have in Korea are not of the variety that I 
would want to go to war with. I want up-armored Humvees. I 
think it is important.
    Now, we would not necessarily face the kind of, you know, 
improvised explosive device (IED) threat you see in Afghanistan 
and Iraq right now, but to go into combat with soft-skinned 
wheeled vehicles is not something I would prefer to do.
    So the answer is both in my prepo stocks over there and for 
the one maneuver brigade that I have from the Second Infantry 
Division, these Humvees--and, for that matter, sir, our 
tactical trucks, the larger trucks, two and a half-ton family 
of tactical vehicles--I believe they and the stocks in the 
United States have to go through a significant refit over the 
next years to get them to a capacity where they will survive in 
combat better than we have today.
    Our notion of wheeled vehicles was based on a more linear 
type battlefield, where we had a secure rear area and blah, 
blah, blah. And now we see, in modern warfare, that that 
guarantee of a secure rear area is just not something we can 
count on.
    So we have got to upgrade our ground equipment so that our 
supporting equipment has the capacity of some of our combat 
equipment to survive in this non-contiguous battle space.
    So I will tell you, Congressman, your concerns about this 
equipment--I share those concerns, not only with respect to the 
ability to generate forces out of the United States, but also 
the kinds of equipment we have, given the realities of modern 
warfare.
    Having said that, I am really confident in the Republic of 
Korea army. Really. And I am very confident in our air and 
naval power. And all the work I have done gives me a lot of 
confidence that we have a very potent capacity to defeat the 
North Koreans.
    But your concerns are spot on, and we are seriously worried 
about some of those issues.
    Mr. Taylor. General, the last number that I had heard was 
that the North Koreans had approximately 100,000 people in 
their special forces. Is that still fairly accurate?
    General Bell. That is a little high, but the number I would 
share with you here today is around 80,000. And I am very 
concerned about their special forces.
    Mr. Taylor. Okay. I have always noticed--I hate to use the 
word ``impressed,'' but I have certainly taken notice in our 
foe's ability to wreak havoc with a minimal amount of money.
    Given that the Humvee has been shown to be particularly 
susceptible to land mines, and that our enemies obviously talk 
to each other over the Internet and potential enemies talk to 
each other over the Internet, I have now become convinced that 
up-armoring Humvees is not the solution, that we need to go to 
replacing Humvees with something like an MRAP or better.
    So with that in mind, what would be the number of vehicles 
in Korea that would need replacing? And I am also not a fan of 
requirement. I think the Army in particular has caused 
themselves a lot of troubles with these artificial requirement 
numbers.
    When you take 10 percent of the total force and say that is 
all I need to replace, and we end up finding it is not 10 
percent, it is really 100 percent, let's get to that sooner 
rather than later.
    So what are the number of Humvees that you have on the 
Korean peninsula?
    General Bell. Again, sir, I would say it goes beyond 
Humvees. It is the family of tactical trucks. I would be really 
focused on that.
    Mr. Taylor. So what are the number of vehicles?
    General Bell. This number that I would share with you today 
is for the force we have on the ground today, not the force 
that we might want to bring in. Somewhere less than 1,000 of 
these platforms.
    Mr. Taylor. Okay. General, the other thing--and this is 
going back about 18 months to the storm that hit the 
Mississippi gulf coast. One of the things that hit me, given 
what happened in my area, the reports I was getting out of the 
New Orleans area, what was obviously a huge demand on the meals 
ready to eat (MRE) stocks--and for good reason, but obviously, 
a huge demand on the stocks.
    And I remember thinking, ``Gee, what if the North Koreans 
act up about now?'' What are your stocks for things like MREs, 
for things like generators?
    You know, just the basic things that are going to happen in 
a conventional conflict, when your electricity goes out, the 
water quits running, can't necessarily count on the supply 
ships being as timely as they were before. What are your 
normally prepositioned stock--what is your timeline?
    General Bell. I want to be just a bit cautious because of 
classification, but I require a minimum of 15 days of supply of 
Class 1. Class 1 is food. I have those stocks on hand now on 
the peninsula for the force I have on hand.
    And the prepo of Class 1, mostly MREs but there are some 
other prepackaged foods, in the Pacific region under Admiral 
Fallon's command right now significantly go beyond that. So 
Class 1 is not something I am concerned about for the force I 
have on the ground today, much.
    Class 3 fuel, which is one of these basics--I am very 
confident in our Class 3 stocks on the peninsula and in the 
region.
    The two stocks that are more fragile are Class 5 and Class 
7. Five, of course, is ammunition. Conventional ammo I am very 
confident in. On the peninsula we have probably more than we 
will consume.
    But some of the other type, more modern munitions, 
particularly aerial delivery munitions and others, are the 
kinds of stocks that I would like to see increased in our 
inventory, both in the region and in the United States.
    Class 7 is what you have been talking about. Those are 
major end items of equipment. Whether it is a tank or whether 
it is a Humvee, that is a Class 7 item.
    And again, I think of all the classes of supply that we 
have in the military today, the Class 7 stocks are under the 
most stress because of the war in Iraq and Afghanistan, not 
only from a modernization perspective, like you said, but just 
a refit perspective, and the long lines that we have in our 
depots to get this stuff brought back up to standards.
    And so again, while I don't anticipate needing that 
equipment in Korea, if I did need it, it would be difficult for 
the United States to generate that today, and we would have to 
work very hard to meet requirements if they went beyond my 
expectations.
    Having said that, I would tell you again, Congressman, I am 
extremely confident in the Republic of Korea army. And I know 
the North Korean army very well. I have studied them.
    And it would not be wise for the North Koreans to attempt 
an adventure in the Republic of Korea with the capability of 
the ROK military and our air and naval power. And I have got a 
range of confidence that is very high, sir.
    Mr. Taylor. The equipment concerns that you have, are they 
addressed in this year's Department of Defense request?
    General Bell. They are, absolutely. And my integrated 
priority list, absolutely.
    Mr. Taylor. If a conventional war were to break out on the 
Korean peninsula, you would not be coming to this committee a 
year from now saying oops, I got caught flat-footed because of 
what was going on in Iraq and Afghanistan?
    General Bell. It is not my expectation that I would come to 
this committee a year from now and tell you I got caught flat-
footed at all. I have enormous confidence in the Republic of 
Korea army.
    Mr. Taylor. Last question, and I will use some examples. We 
have spent, I guess off the top of my head, $500 million to 
build a base in Manta, Ecuador up to American standards. 
Apparently we are being asked to give it back to the 
Ecuadorians.
    You probably spent some of your career in Panama. We spent 
a lot of money on housing and other important needs--turned 
that over around the year 2000.
    I agree with your desire to be able to bring the families 
over to Korea. I think that makes perfect sense. But there is 
obviously a price tag associated with even our half of the 
MILCON.
    My question is given the example of Ecuador, given the 
example of Panama, what sort of guarantees can we get from the 
Korean government that we are not just going to build something 
to turn it over in three years to five years?
    General Bell. It really boils down to interests of both 
nations and the strength of the alliance, not just U.S. 
stationing in South Korea.
    But why do we have a mutual security alliance with the 
Republic of Korea or, for that matter, one with Japan or other 
nations in the area? And how enduring are those alliances?
    And when we look at the region, and when we talk to our 
friends--the Republic of Korea, the Japanese, even some 
emerging partners, hopefully China, et cetera--it is clear to 
us that not only are we welcome and wanted in that area of the 
world as a stabilizing force, but that that welcoming and 
wanting will continue into the future even if the confrontation 
between North Korea and the partners in the region, South Korea 
leading those--even if that were to be solved.
    Those nations want the United States to be an enduring 
partner with them. I am very confident and I say for the record 
that it is my full expectation that the United States will be 
asked to remain as a reliable and trusted ally with the 
Republic of Korea, as they have been with us, deep into the 
future, certainly throughout this century and beyond.
    And I see no potential at all for the Republic of Korea to 
ask us to leave anywhere in the future that I can envision. So 
I am very confident that, one, we would not be wasting money.
    Second, a great deal of our stationing costs there are paid 
for by the Republic of Korea, as we are seeing the case in 
Japan as well. As long as they are willing to continue to offer 
us their good economic engine to encourage us to have forces 
stationed there, I believe that we will continue to see that 
the majority of our stationing costs are covered by our ally.
    And our building costs in the future will be significantly 
paid for by our ally as well. Sir, we will have costs. I will 
come to this committee and ask for help. But we have a reliable 
and trusted ally. They are paying for our stationing in a 
significant way now. And I am confident that they will do that 
in the future.
    Mr. Taylor. Admiral Sestak, do you have a need for a second 
round?
    Mr. Sestak. Just a couple quick ones.
    Mr. Taylor. Sure.
    Mr. Sestak. General or Admiral, when you talk about----
    Mr. Taylor. Admiral, if I may interrupt, you have got 
exactly four minutes under the House rules.
    Mr. Sestak. All right.
    If I might ask, the Intelligence, Surveillance and 
Reconnaissance (ISR) assets for the early warning, are they 
sufficient? Have they changed since Iraq has begun, Admiral?
    Admiral Fallon. ISR, intelligence surveillance 
reconnaissance assets, are high demand, no doubt about it. 
There is a huge investment in these assets in Iraq. We look at, 
in my theater, day to day, to see how we are doing.
    We have agreed to move a lot of these assets to Central 
Command right now. I think that we are okay in this theater. I 
would like to have some of these assets back on a day-to-day 
basis. But given where we are at this day, we found that risk 
to be acceptable.
    If it changes tomorrow, I will be the first in line to go 
to CENTCOM and ask--or ask the chairman to get some of these 
back. But right now, I think we are okay.
    Mr. Sestak. Admiral, also, or General--I think it is in 
your theater, Admiral--the ballistic missile defense (BMD), the 
afloat portion that had come out there but--I understand the 
interest in ballistic missile defense.
    But don't we have an afloat radar out there that is not 
quite seaworthy, the one that will go up in----
    Admiral Fallon. Are you referring to the X-band----
    Mr. Sestak. Yes, sir.
    Admiral Fallon [continuing]. Platform? They have had some 
challenges. This is a development program, BMD. It is not 
really mine, although it has been operating in our theater.
    I believe that it is being shaken down, and I don't want to 
speak for BMD. We have watched with interest as it comes along.
    Mr. Sestak. This is really their area.
    Admiral Fallon. But we are not totally dependent on this 
system. It is very helpful, but we have in place our afloat 
systems, Aegis systems, and this X-band radar that is now land-
based in Japan that is----
    Mr. Sestak. Forward Based X-Band Transportable Radar (FBX-
T)?
    Admiral Fallon. Yes, that is correct, FBX-T.
    Mr. Sestak. And my next is dry dock. Do we have a dry dock 
in Guam for the submarines, or, if not, are we planning on 
putting one there so they can enhance its readiness rather than 
going back to Hawaii?
    Admiral Fallon. That is a good question. There is a dock. 
We have not used it. To the best of my knowledge, again, it is 
really a fleet question. We will have to get----
    Mr. Sestak. But it is a significant difference from the 
first couple boats, right, not having a dry--is it something 
that the Navy may be looking at?
    Admiral Fallon. We are looking at it. The Navy is looking 
at it. And one of the realities is, as these first submarines 
went out there--is to kind of see what we know and what we 
don't know.
    And I think the Navy will make their future deployment 
decisions and repair decisions based on what they learn from 
these early deployments.
    Mr. Sestak. Thanks for your time.
    And, Admiral, thanks for a lot during my career. I very 
much appreciate it. There is no one better in the Navy that 
could go to CENTCOM or--just no one better in the Navy. Thank 
you, sir.
    Mr. Taylor. The committee stands adjourned.
    I want to thank our witnesses.
    Admiral Fallon. Thank you, sir.
    [Whereupon, at 11:03 a.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 7, 2007

=======================================================================
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 7, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37315.001
    
    [GRAPHIC] [TIFF OMITTED] 37315.002
    
    [GRAPHIC] [TIFF OMITTED] 37315.003
    
    [GRAPHIC] [TIFF OMITTED] 37315.004
    
    [GRAPHIC] [TIFF OMITTED] 37315.005
    
    [GRAPHIC] [TIFF OMITTED] 37315.006
    
    [GRAPHIC] [TIFF OMITTED] 37315.007
    
    [GRAPHIC] [TIFF OMITTED] 37315.008
    
    [GRAPHIC] [TIFF OMITTED] 37315.009
    
    [GRAPHIC] [TIFF OMITTED] 37315.010
    
    [GRAPHIC] [TIFF OMITTED] 37315.011
    
    [GRAPHIC] [TIFF OMITTED] 37315.012
    
    [GRAPHIC] [TIFF OMITTED] 37315.013
    
    [GRAPHIC] [TIFF OMITTED] 37315.014
    
    [GRAPHIC] [TIFF OMITTED] 37315.015
    
    [GRAPHIC] [TIFF OMITTED] 37315.016
    
    [GRAPHIC] [TIFF OMITTED] 37315.017
    
    [GRAPHIC] [TIFF OMITTED] 37315.018
    
    [GRAPHIC] [TIFF OMITTED] 37315.019
    
    [GRAPHIC] [TIFF OMITTED] 37315.020
    
    [GRAPHIC] [TIFF OMITTED] 37315.021
    
    [GRAPHIC] [TIFF OMITTED] 37315.022
    
    [GRAPHIC] [TIFF OMITTED] 37315.023
    
    [GRAPHIC] [TIFF OMITTED] 37315.024
    
    [GRAPHIC] [TIFF OMITTED] 37315.025
    
    [GRAPHIC] [TIFF OMITTED] 37315.026
    
    [GRAPHIC] [TIFF OMITTED] 37315.027
    
    [GRAPHIC] [TIFF OMITTED] 37315.028
    
    [GRAPHIC] [TIFF OMITTED] 37315.029
    
    [GRAPHIC] [TIFF OMITTED] 37315.030
    
    [GRAPHIC] [TIFF OMITTED] 37315.031
    
    [GRAPHIC] [TIFF OMITTED] 37315.032
    
    [GRAPHIC] [TIFF OMITTED] 37315.033
    
    [GRAPHIC] [TIFF OMITTED] 37315.034
    
    [GRAPHIC] [TIFF OMITTED] 37315.035
    
    [GRAPHIC] [TIFF OMITTED] 37315.036
    
    [GRAPHIC] [TIFF OMITTED] 37315.037
    
    [GRAPHIC] [TIFF OMITTED] 37315.038
    
    [GRAPHIC] [TIFF OMITTED] 37315.039
    
    [GRAPHIC] [TIFF OMITTED] 37315.040
    
    [GRAPHIC] [TIFF OMITTED] 37315.041
    
    [GRAPHIC] [TIFF OMITTED] 37315.042
    
    [GRAPHIC] [TIFF OMITTED] 37315.043
    
    [GRAPHIC] [TIFF OMITTED] 37315.044
    
    [GRAPHIC] [TIFF OMITTED] 37315.045
    
    [GRAPHIC] [TIFF OMITTED] 37315.046
    
    [GRAPHIC] [TIFF OMITTED] 37315.047
    
    [GRAPHIC] [TIFF OMITTED] 37315.048
    
    [GRAPHIC] [TIFF OMITTED] 37315.049
    
    [GRAPHIC] [TIFF OMITTED] 37315.050
    
    [GRAPHIC] [TIFF OMITTED] 37315.051
    
    [GRAPHIC] [TIFF OMITTED] 37315.052
    
    [GRAPHIC] [TIFF OMITTED] 37315.053
    
    [GRAPHIC] [TIFF OMITTED] 37315.054
    
    [GRAPHIC] [TIFF OMITTED] 37315.055
    
    [GRAPHIC] [TIFF OMITTED] 37315.056
    
    [GRAPHIC] [TIFF OMITTED] 37315.057
    
    [GRAPHIC] [TIFF OMITTED] 37315.058
    
    [GRAPHIC] [TIFF OMITTED] 37315.059
    
    [GRAPHIC] [TIFF OMITTED] 37315.060
    
    [GRAPHIC] [TIFF OMITTED] 37315.061
    
    [GRAPHIC] [TIFF OMITTED] 37315.062
    
    [GRAPHIC] [TIFF OMITTED] 37315.063
    
    [GRAPHIC] [TIFF OMITTED] 37315.064
    
    [GRAPHIC] [TIFF OMITTED] 37315.065
    
    [GRAPHIC] [TIFF OMITTED] 37315.066
    
    [GRAPHIC] [TIFF OMITTED] 37315.067
    
    [GRAPHIC] [TIFF OMITTED] 37315.068
    
    [GRAPHIC] [TIFF OMITTED] 37315.069
    
    [GRAPHIC] [TIFF OMITTED] 37315.070
    
    [GRAPHIC] [TIFF OMITTED] 37315.071
    
    [GRAPHIC] [TIFF OMITTED] 37315.072
    
    [GRAPHIC] [TIFF OMITTED] 37315.073
    
    [GRAPHIC] [TIFF OMITTED] 37315.074
    
    [GRAPHIC] [TIFF OMITTED] 37315.075
    
    [GRAPHIC] [TIFF OMITTED] 37315.076
    
    [GRAPHIC] [TIFF OMITTED] 37315.077
    
    [GRAPHIC] [TIFF OMITTED] 37315.078
    
    [GRAPHIC] [TIFF OMITTED] 37315.079
    
    [GRAPHIC] [TIFF OMITTED] 37315.080
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 7, 2007

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. MCINTYRE

    Mr. McIntyre. There were unconfirmed reports recently of the 
Russians selling missiles to Iran. Do you have any knowledge of this?
    Admiral Fallon and General Bell. Questions regarding Russian 
missile sales to Iran and how this may affect our interests can best be 
addressed by U.S. European Command (EUCOM) rather than by USFK since 
our focus is on Korea and issues related to the theater. However, after 
consultation with EUCOM, we have been advised of the following:
    In late November 2005, Russian and Iran negotiated a contract for 
29 TOR-Mi surface-to-air missiles for $700 million. Russian officials 
announced in January 2007 that all of the Tor-Mi had been delivered to 
Iran. Iranian officials announced the successful local testing of the 
Tor-Mi in February 2007.
    Press reports indicate that Syria intended to sell Iran 10 PANTSIR-
S1 surface-to-air missile systems, part of a block of 50 PANTSIR-S's 
Syria contracted from Russia. Russian officials denied allegations they 
were selling PANTSIR-S1 to Iran using Syria as an intermediary.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. TAUSCHER
    Ms. Tauscher. Do you believe there are sufficient numbers of 
PATRIOT PAC-3 interceptors currently available in the PACOM/USFK AOR, 
or are additional capabilities needed?
    Admiral Fallon. [The information referred to is classified and 
retained in the committee files.]
    Ms. Tauscher. Also, do you believe that there are sufficient 
numbers of Aegis BMD-capable ships and Standard Missile-3 interceptors 
currently available in theater, or are additional capabilities needed?
    Admiral Fallon. [The information referred to is classified and 
retained in the committee files.]
    Ms. Tauscher. Do you believe there are sufficient numbers of 
PATRIOT PAC-3 interceptors currently available in the PACOM/USFK AOR, 
or are additional capabilities needed?
    General Bell. [The information referred to is classified and 
retained in the committee files.]
    Ms. Tauscher. Also, do you believe that there are sufficient 
numbers of Aegis BMD-capable ships and Standard Missile-3 interceptors 
currently available in theater, or are additional capabilities needed?
    General Bell. There are insufficient numbers of Aegis BMD-Capable 
ships or Standard Missile-3 interceptors to solely address the entire 
ballistic missile threat in the PACOM AOR. However, the United States 
cannot rely on ``Active Defense'' alone to counter the growing 
Ballistic Missile threat in the Pacific. We must increase our Joint 
capabilities to counter the ballistic missile threat in the Pacific 
utilizing all four pillars of missile defense (Active Defense, Attack 
Operations, Passive Defense, and C4I) in order to pace and counter the 
growing Ballistic Missile threat.

                                  <all>

</pre></body></html>
